<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                         TUESDAY, MAY 21, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:40 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Jeanne Shaheen (chairwoman) 
presiding.
    Present: Senators Shaheen, Hoeven, and Boozman.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, COMPTROLLER GENERAL OF THE 
            UNITED STATES

              OPENING STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Good morning, everyone.
    I apologize for being late and for being a little 
disorganized this morning. Welcome.
    I want to especially thank our witnesses who are here 
today. Gene L. Dodaro, who is the Comptroller General, thank 
you for being here; Davita Vance-Cooks, the Acting Public 
Printer, very nice to have you here; and Doug Elmendorf, who is 
the Director of the Congressional Budget Office. I am pleased 
to be joined by the ranking member on this subcommittee, 
Senator Hoeven.
    This is our second hearing of the year. We are particularly 
interested this morning in hearing both about your budget 
proposal, but also about the impact that sequestration has had 
on your operations and any projections you might have for your 
ability to continue to provide for the operations of this 
Congress should sequestration continue, and should your budget 
requests not be honored. I am going to ask you to focus on 
those, which I am sure you were planning anyway, as part of 
your remarks.
    And we will begin, Mr. Dodaro, with you.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much. Good morning Chairwoman 
Shaheen, Ranking Member Hoeven. I am pleased to be here.
    First, I would like to thank the subcommittee for its 
support of us in the past, and I believe we have delivered a 
great return on investment given the support that you have 
given us.
    Last year, as a result of implementation of our 
recommendations, $55.8 billion occurred in financial benefits, 
and that is $105 returned for every $1 invested in GAO. In 
addition, we achieved more than 1,400 other benefits in helping 
the Congress improve laws, public safety, and the effectiveness 
of Federal Government programs. So we believe we have a solid 
track record.
    We have been working very hard to deal with both the budget 
reductions and sequestration. We have reduced our 
administrative costs more than 20 percent, and kept them down. 
We have also reduced our travel costs more than 40 percent, and 
kept them down. We have increased our rental income by 
rearranging our office space, and we have a new tenant in the 
headquarters building. We have also embarked on an enhanced 
telework initiatives in our field offices to bring down our 
rental costs very significantly in the field offices.
    The main casualty for us, though, since we are 81 percent 
personnel costs, is the fact that the size of our organization 
is much smaller. By the end of fiscal year 2013, our staffing 
level will be down almost 14 percent from fiscal year 2010 
levels. That is the smallest level we have been since 1935.
    The best way that I could explain the impact, both short 
term and long term, is given that number over a 6-year period 
with a 15-percent reduction, if it continues at that level that 
is the equivalent of the entire GAO not working for 1 year.
    On average, for the past several decades, we have been able 
to produce, annually, $46 billion of financial benefits and 
more than 1,200 other benefits for the Government. So reduced 
staffing will have impact. A smaller GAO means that we will be 
able to identify fewer opportunities for the Congress to save 
money, enhance revenues, and to effectively deal with the 
Federal Government's long term fiscal challenges.
    The Federal Government will have fiscal challenges for many 
years to come. I think an investment in GAO is a prudent use of 
resources, so GAO can help Congress identify areas where it cut 
the programs appropriately, prioritize properly, and take these 
actions in a more equitable and targeted manner that won't have 
unintended consequences.
    In fact, we have already been asked to look at the impact 
of sequestration on other agencies. And having been around 
Government for a while, I know the type of cutbacks that will 
be made during downsizing. I think that some of the cutbacks 
can increase the risk of other Federal Government programs 
perhaps wasting more resources or having internal control 
breakdowns.
    That is an area where we can well serve the Congress by 
getting in, and doing that work, and helping rectify those 
situations before they have more severe consequences.
    We have made a prudent request for next year to try to add 
back some of our staffing level. We would still be well below 
the fiscal year 2010 levels, but we think it is prudent to be 
able to do this.
    We normally have about 420 people in our entry level 
programs. Right now, we have 14. We have had 3 straight years 
now of not bringing in enough people to replace attrition: 40 
percent of our senior executives are eligible to retire; 26 
percent of our midlevel managers.
    The reason we have been able to produce solid results year 
in and year out is because we have a highly dedicated and 
trained workforce and good succession planning because it takes 
experienced people to be able to find these problems in 
Government and deal with them effectively. And I am concerned. 
I tell everybody I feel like a college football coach where the 
seniors are leaving, but there are no freshmen and sophomores.
    So I ask for your indulgence. I know you will give careful 
consideration to our request, and I look forward to answering 
your questions at the appropriate time.
    [The statement follows:]

                  Prepared Statement of Gene L. Dodaro

                    FISCAL YEAR 2014 BUDGET REQUEST

    In February, GAO submitted its fiscal year 2014 budget request for 
a modest increase of 1.9 percent to bolster its staff capacity and 
retain its highly skilled workforce. Consistent with guidance from the 
appropriations committees and OMB, the fiscal year 2014 request was 
based on the annualized level of the initial continuing resolution (CR) 
which provided a slight increase over fiscal year 2012 in fiscal year 
2013. Since that time, several actions have significantly reduced GAO's 
fiscal year 2013 appropriation from $511.3 million in fiscal year 2012 
to $479.5 million in fiscal year 2013, including (1) a reduction of $5 
million imposed in the final CR resulting in an enacted level of $506.3 
million, and (2) the $25.7 million sequester and $1 million rescission 
required by the Budget Control Act--a total reduction of $31.7 million 
or 6.2 percent below fiscal year 2012.
    GAO appreciates the flexibility Congress provided in the final CR 
to help partially offset these reductions by increasing GAO's authority 
to spend collections and use prior year available balances to cover 
mandatory workers' compensation costs. However, these reductions to 
GAO's fiscal year 2013 resources required that GAO take a number of 
actions to curtail spending plans, including reducing planned hiring by 
nearly 60 percent--dropping GAO's staffing level by over 100 full-time 
equivalent (FTE) staff to 2,884 FTEs. Fiscal year 2013 represents the 
third consecutive year of reductions in GAO's staffing level.
    GAO has also updated its fiscal year 2014 requirements to reflect 
reduced fiscal year 2013 resources, hiring and spending. GAO's fiscal 
year 2014 revised requirements of $505.4 million are 0.2 percent below 
the fiscal year 2013 CR-enacted level and 5.4 percent over the fiscal 
year 2013 post-sequester/post-rescission funding level. Consistent with 
guidance, GAO's estimates assume the across-the-board pay increase 
(ATB) is 1.8 percent. However, if Congress chooses the ATB of 1 percent 
recently recommended by the President, it would further reduce GAO's 
requirements to $502.5 million--an increase of 4.8 percent over the 
fiscal year 2013 post-sequester/post-rescission funding level.
    GAO's fiscal year 2014 estimate supports a staffing level of 2,945 
FTEs and will allow GAO to reinvigorate its hiring and retention 
programs to address succession planning and critical skill gaps and 
bolster GAO's overall staff capacity. Since fiscal year 2010, GAO has 
dramatically reduced its staffing level and operating costs in response 
to budget constraints. By the end of fiscal year 2013, GAO's staffing 
level will have dropped by 463 FTE or nearly 14 percent--a level not 
seen since 1935. In addition, in order to sustain quality operations 
throughout this period of budget constraints, GAO has already 
significantly reduced spending, reorganized its administrative support 
structure, improved business practices, leveraged technology to enhance 
the overall efficiency of its operations, and made significant 
reductions in its engagement support and infrastructure programs.
    This significant reduction in GAO's staffing level severely 
jeopardizes its ability to adequately support the Congress in a timely 
manner, now and in the future. It is imperative that GAO rebuild its 
staff capacity to a level that will enable it to optimize the benefits 
GAO yields for the Congress and the Nation going forward. Given the 
size of the Federal budget and the multiyear actions needed to address 
the seriousness of the Government's fiscal condition, investing 
resources to restore some of GAO's staff capacity would be a prudent 
and wise investment that will produce positive outcomes for the 
Congress and our country. For example, since 2002 GAO's work has 
resulted in over one-half trillion dollars in financial benefits and 
over 14,000 other benefits for the American people.
    Chairwoman Shaheen, Ranking Member Hoeven, and members of the 
subcommittee: I appreciate the opportunity to be here today to discuss 
the U.S. Government Accountability Office's (GAO) budget request for 
fiscal year 2014. I want to thank the subcommittee for its continued 
support of GAO. GAO very much appreciates the confidence you have shown 
in its efforts to help support the Congress in carrying out its 
constitutional responsibilities and to help improve Government 
performance and accountability for the benefit of the American people.
    GAO's results include generating recommendations that save 
resources and increase revenue; improve the accountability, operations, 
and services of Government agencies; increase the effectiveness of 
Federal spending; and provide other benefits. Since fiscal year 2002, 
GAO's work has resulted in substantial financial and other benefits for 
the American people, including:
  --over one-half trillion dollars in financial benefits;
  --14,083 program and operational benefits that helped to change laws, 
        improve public services, and promote sound management 
        throughout Government; and;
  --12,485 products including 22,548 recommendations.
    In February, GAO submitted its fiscal year 2014 budget request for 
a slight increase of 1.9 percent to bolster GAO's staff capacity and 
retain its highly skilled workforce. Consistent with guidance from the 
Appropriations Committees and OMB, the fiscal year 2014 request was 
based on the annualized level of the initial continuing resolution (CR) 
which provided agencies a modest increase over fiscal year 2012 in 
fiscal year 2013. Since that time, several actions have significantly 
reduced GAO's fiscal year 2013 appropriation to $479.5 million--a 
reduction of $31.7 million or 6.2 percent below the fiscal year 2012 
level of $511.3 million, including the:
  --March 1 sequester of 5 percent, or $25.7 million, required by the 
        Budget Control Act;
  --March 26 reduction of $5 million imposed in the final CR; and
  --April 4 rescission of $1 million imposed by OMB to bring fiscal 
        year 2013 appropriations within the spending cap mandated by 
        the Budget Control Act.
    GAO also appreciates the flexibility Congress provided in the final 
CR to help partially offset these reductions by increasing GAO's 
authority to spend collections and use prior year available balances to 
cover mandatory workers' compensation costs. However, the reductions to 
GAO's fiscal year 2013 appropriation level required that GAO take a 
number of actions to curtail spending plans, including reducing planned 
hiring by nearly 60 percent. Consequently, GAO's staffing level will 
decline for the third consecutive year. In fiscal year 2013, GAO's 
full-time equivalent (FTE) staffing level will drop by over 100 FTE to 
2,884 FTEs.
    GAO has updated its fiscal year 2014 requirements to reflect 
reduced fiscal year 2013 resources, hiring and spending. GAO's fiscal 
year 2014 requirements of $505.4 million are 0.2 percent less than the 
fiscal year 2013 appropriation of $506.3 million provided in the final 
CR and a 5.4 percent increase over the fiscal year 2013 post-sequester 
and post-rescission net appropriation level of $479.5 million. This 
funding supports a staffing level of 2,945 FTEs and will allow GAO to 
reinvigorate its hiring and retention programs to address succession 
planning and critical skill gaps and increase GAO's overall staff 
capacity.
    This estimate includes the across-the-board pay increase at 1.8 
percent based on guidance from the Appropriations Committees and the 
legislative branch Financial Managers' Council. However, if Congress 
chooses the across-the-board pay increase recommended in the 
President's recent budget submission of 1 percent, it would further 
reduce GAO's fiscal year 2014 requirements to $502.5 million--a 4.8 
percent increase over the fiscal year 2013 post-sequester and post-
rescission net appropriation level.
    Since fiscal year 2010, GAO has dramatically reduced its staffing 
level and operating costs in response to budget constraints. By the end 
of fiscal year 2013, GAO's staffing level will have dropped by 463 FTE 
or nearly 14 percent to 2,884 FTEs--a level not seen since 1935. Since 
fiscal year 2010, GAO has had extremely limited hiring, and as a 
result, the number of entry-level staff is not sufficient to provide a 
pipeline of experienced staff in the future and a significant 
proportion of GAO employees will be retirement eligible at the end of 
fiscal year 2013.
    This significant reduction in GAO's staffing level and these 
succession planning challenges severely jeopardize GAO's ability to 
adequately support the Congress in a timely manner, now and into the 
future. It is imperative that GAO rebuild its staff capacity to a level 
that will enable it to optimize the benefits GAO yields for the 
Congress and the Nation going forward. Given the size of the Federal 
budget and the multiyear actions needed to address the seriousness of 
the Government's fiscal condition, investing resources to restore some 
of GAO's staff capacity would be both prudent and wise.
     assisting the congress and the nation during challenging times
    GAO remains one of the best investments in the Federal Government, 
and GAO's dedicated staff continues to deliver high quality results. In 
fiscal year 2012 alone, GAO provided services that spanned across the 
broad range of Federal programs and activities. GAO provided results 
that supported 95 percent of the standing committees of the Congress 
and about 60 percent of their subcommittees.
    GAO's work issued in fiscal year 2012 addressed various topics such 
as continued work on duplication, overlap, and fragmentation in the 
Federal Government; the war in Afghanistan; Postal Service financial 
issues; implementation of Dodd-Frank Wall Street Reform and Consumer 
Protection Act of 2010; and the Federal, State, and local government 
fiscal outlook. GAO also reviewed Government programs and operations 
that are at high risk for fraud, waste, abuse, and mismanagement, as 
well as reviews of agencies' budget requests to help support 
congressional decisionmaking. In addition, senior GAO officials 
testified at 159 hearings on national and international issues as shown 
in Appendix I. GAO's findings and recommendations produce measurable 
financial benefits after Congress acts or an agency implements them and 
the funds are made available to reduce Government expenditures or are 
reallocated to other areas.

Financial Benefits and Other Improvements
    GAO's fiscal year 2012 work yielded significant results across the 
Government, including $55.8 billion in financial benefits--a return of 
$105 for every dollar invested in GAO. Examples of fiscal year 2012 
financial benefits resulting from GAO recommendations implemented by 
Congress or Federal agencies include:
  --$12.4 billion from legislated reductions in payments to Medicare 
        Advantage plans.--GAO analysis found that Medicare Advantage 
        plans spent less on medical expenses than projected, thus 
        gaining much higher profits than originally estimated;
  --$8 billion from cancellation of NASA's Constellation program.--GAO 
        questioned the project's affordability, acquisition strategy, 
        and overall business plan; and
  --$3.1 billion from cancellation of DOD plans to lengthen South Korea 
        tours of duty.--After conducting a GAO-recommended analysis of 
        benefits, costs, and alternatives to a planned initiative to 
        increase lengths of U.S. service members' tours in South Korea 
        and move their dependents, DOD decided the initiative was 
        unaffordable, avoiding $3.1 billion in costs.
    In fiscal year 2012, GAO also contributed to 1,440 program and 
operational benefits that helped to change laws, improve public 
services, and promote sound management throughout Government. Thirty-
six percent of these benefits are related to public safety and 
security, 35 percent are related to business process and management, 14 
percent are related to program efficiency and effectiveness, 8 percent 
are related to acquisition and contract management, 4 percent are 
related to tax law administration, and 3 percent are related to public 
insurance and benefits, and included:
  --Public Safety and Security.--Enhancing the Food and Drug 
        Administration's ability to protect public health by taking a 
        more risk-based approach in selecting foreign drug 
        establishments for inspections; improving oversight of medical 
        device recalls; enhancing its response to drug shortages; and 
        expanding its efforts to expedite review of applications to 
        market drugs that would help to prevent or resolve shortages 
        (Food and Drug Administration Safety and Innovation Act).
  --Public Safety and Security.--Addressing weaknesses in how agencies 
        create and use the terrorist watchlist.
  --Acquisition and Contract Management.--More robust planning for 
        contractor demobilization and personnel accountability by the 
        Department of Defense (DOD).
  --Public Insurance and Benefits.--Requiring the Federal Emergency 
        Management Agency to use information on topography, coastal 
        erosion areas, changing lake levels, future changes in sea 
        levels, and intensity of hurricanes in updating its flood maps 
        (Biggert-Waters Flood Insurance Reform Act of 2012).
  --Public Insurance and Benefits.--Improving Social Security 
        Administration performance goals and risk assessments in 
        support of the disability claims process.
  --Tax Law Administration.--Strengthening IRS' use of existing tax 
        collection tools.
    GAO recently issued its third annual report on duplication, 
overlap, cost-saving opportunities, and revenue enhancements which 
identifies an additional 31 areas where agencies may be able to achieve 
greater efficiencies or effectiveness. Within these 31 areas, GAO 
identified 81 actions that the executive branch and Congress could take 
to reduce fragmentation, overlap, and duplication, as well as other 
cost savings and revenue enhancement opportunities. Through its three 
annual reports, GAO has identified a total of 162 areas with 380 
actions that the executive branch and Congress could take to address 
fragmentation, overlap, and duplication or achieve cost savings. 
Collectively, these reports show that, if the actions are implemented, 
the Government could potentially save tens of billions of dollars 
annually.
    In addition to identifying new areas, GAO has continued to monitor 
the progress executive branch agencies and Congress have made in 
addressing the areas previously identified. GAO has developed a 
publicly accessible, online search tracks which provides the 
implementation status of every suggested action that GAO identified in 
its three annual reports. To date, results or actions from the 2011 and 
2012 reports show: 65 actions have been addressed, 149 actions have 
been partially addressed, and 85 actions have not been addressed.
    GAO also issued 11 products in response to the Dodd-Frank Wall 
Street Reform and Consumer Protection Act on financial institutions and 
securities markets and several reports on insurance markets and 
publicly financed health insurance programs related to the Patient 
Protection and Affordable Care Act. In addition, GAO continued to 
regularly report the results of its work on the Troubled Asset Relief 
Program and the American Recovery and Reinvestment Act.
    Every 2 years, GAO provides Congress with an update on its High 
Risk Series which highlights major programs that are at high risk due 
to their greater vulnerabilities to waste, fraud, abuse, and 
mismanagement or the need for transformation to address economy, 
efficiency, or effectiveness challenges. In fiscal year 2012, GAO 
issued 188 reports, delivered 55 testimonies to the Congress, and 
prepared several other products, such as briefings and presentations 
related to its High Risk work.
    Financial benefits resulting from this work totaled $28.4 billion 
in fiscal year 2012. Solutions to high risk problems offer the 
potential to save billions of dollars, improve services to the public, 
and strengthen the performance and accountability of the U.S. 
Government. In February 2013, GAO issued the biennial update and report 
on progress made and what remains to be done to address each of the 
high risk areas. The updated High Risk List identifies 30 troubled 
areas across Government and is shown below.

                   TABLE 1.--GAO's 2013 HIGH RISK LIST
------------------------------------------------------------------------

------------
      STRENGTHENING THE FOUNDATION FOR EFFICIENCY AND EFFECTIVENESS

--Limiting
        the
    Federal
 Government
  's Fiscal
   Exposure
  by Better
   Managing
    Climate
     Change
      Risks
      (new)
--Managemen
       t of
    Federal
    Oil and
        Gas
  Resources
--Modernizi
     ng the
       U.S.
  Financial
 Regulatory
 System and
    Federal
    Role in
    Housing
    Finance
--Restructu
   ring the
       U.S.
     Postal
 Service to
    Achieve
 Sustainabl
          e
  Financial
  Viability
 --Funding
        the
   Nation's
    Surface
 Transporta
       tion
     System
--Strategic
      Human
    Capital
 Management
--Managing
    Federal
       Real
   Property
------------------------------------------------------------------------
                   TRANSFORMING DOD PROGRAM MANAGEMENT

     --DOD
   Approach
         to
   Business
 Transforma
       tion
     --DOD
   Business
    Systems
 Modernizat
        ion
     --DOD
    Support
 Infrastruc
       ture
 Management
     --DOD
  Financial
 Management
     --DOD
     Supply
      Chain
 Management
     --DOD
     Weapon
    Systems
 Acquisitio
          n
------------------------------------------------------------------------
                   ENSURING PUBLIC SAFETY AND SECURITY

--Mitigatin
  g Gaps in
    Weather
  Satellite
 Data (new)
--Strengthe
       ning
 Department
         of
   Homeland
   Security
 Management
  Functions
--Establish
        ing
  Effective
 Mechanisms
        for
    Sharing
        and
   Managing
 Terrorism-
    Related
 Informatio
       n to
    Protect
        the
   Homeland
--Protectin
      g the
    Federal
 Government
         's
 Informatio
  n Systems
    and the
   Nation's
      Cyber
   Critical
 Infrastruc
      tures
--Ensuring
        the
  Effective
 Protection
         of
 Technologi
         es
   Critical
    to U.S.
   National
   Security
  Interests
--Revamping
    Federal
  Oversight
    of Food
     Safety
--Protectin
   g Public
     Health
    through
   Enhanced
  Oversight
 of Medical
   Products
--Transform
  ing EPA's
  Processes
        for
  Assessing
        and
 Controllin
    g Toxic
  Chemicals
------------------------------------------------------------------------
              MANAGING FEDERAL CONTRACTING MORE EFFECTIVELY

     --DOD
   Contract
 Management
   --DOE's
   Contract
 Management
    for the
   National
    Nuclear
   Security
 Administra
     tion &
  Office of
 Environmen
        tal
 Management
    --NASA
 Acquisitio
          n
 Management
------------------------------------------------------------------------
  ASSESSING THE EFFICIENCY AND EFFECTIVENESS OF TAX LAW ADMINISTRATION

--Enforceme
  nt of Tax
       Laws
------------------------------------------------------------------------
       MODERNIZING AND SAFEGUARDING INSURANCE AND BENEFIT PROGRAMS

--Improving
        and
 Modernizin
  g Federal
 Disability
   Programs
 --Pension
    Benefit
   Guaranty
 Corporatio
          n
  Insurance
   Programs
--Medicare
    Program
--Medicaid
    Program
--National
      Flood
  Insurance
    Program
------------------------------------------------------------------------

Strategic Plan for Serving Congress
    In February 2012, GAO issued an interim update to its strategic 
plan for serving the Congress for fiscal years 2010-2015. GAO's 
strategic planning efforts also help it anticipate and respond to 
congressional needs. To be prepared to address timely and relevant 
issues, GAO uses eight broad trends identified in its strategic plan to 
guide its work plans. The scope of GAO's work is broad-based which 
allows it to respond to domestic and international challenges and 
covers the following trends: national security threats; fiscal 
sustainability and debt challenges; economic recovery and restored job 
growth; global interdependence; science and technology; networks and 
virtualization; shifting roles of Government; and demographic and 
societal change. GAO's three external strategic goals reflect the wide 
array of national and international issues that GAO covers in its 
mission to support the Congress, such as:
  --addressing current and emerging challenges to the well-being and 
        financial security of the American people;
  --responding to changing security threats and the challenges of 
        global interdependence; and
  --helping transform the Federal Government to address national 
        challenges.
    GAO plans to issue the next full 5-year strategic plan update for 
serving the Congress in 2014. GAO's strategic plan framework is 
attached as Appendix II. High demand coupled with continuing budget 
constraints and fewer resources necessitates that GAO prioritize 
requests for its work in close consultation with congressional 
committee leaders.
    actions taken to reduce operating costs and achieve efficiencies
    Since fiscal year 2010, GAO has significantly reduced spending, 
reorganized our administrative support structure, improved business 
practices, and leveraged technology to enhance the overall efficiency 
of its operations. Beyond the cuts to GAO's staffing level, GAO has 
also made significant reductions in engagement support and 
infrastructure programs. During this same period, GAO reduced 
engagement support costs, such as staff travel by nearly 47 percent, 
and infrastructure support costs, such as information technology, 
building and security services, and administrative support services by 
nearly 23 percent.
    In addition, GAO has implemented and is continuing to aggressively 
explore other opportunities to reduce its infrastructure costs, provide 
staff more flexibility, and increase its effectiveness and efficiency.

Space Optimization Generates Additional Rental Income
    In fiscal year 2012, GAO completed activities to better optimize 
space in the GAO headquarters building and released a significant 
amount of space which it has leased to the Department of Justice (DOJ) 
under a 10-year agreement which will provide $2.1 million annually to 
help offset GAO's costs. DOJ began occupying the space in January 2013.

Enhanced Telework/Workspace-Sharing Pilot Reduces Infrastructure Costs
    Also, in fiscal year 2013, GAO expects to reduce its physical 
presence in several field offices resulting in savings of $1.2 million 
in lease costs, with additional savings projected in future years. In 
fiscal year 2012, GAO implemented an enhanced telework pilot, including 
workspace sharing and hoteling components, to reduce infrastructure 
costs and enhance flexibility for employees by allowing them to spend 
more time working at home or at an alternate worksite. GAO is expanding 
the pilot to additional field offices throughout fiscal year 2013.

More Efficient IT and Building Systems Reduce Operating Costs
    GAO also plans to implement targeted investments to improve the 
efficiency of its information technology infrastructure and building 
systems. For example, in fiscal year 2013, GAO will be piloting an 
effort to streamline and virtualize its information technology 
infrastructure that will reduce maintenance and operating costs, 
improve system performance, increase data security, and increase the 
availability of tools for staff--particularly GAO's increasingly mobile 
workforce. In a virtualized environment, all GAO operating systems, 
applications, software, and data would be housed in a secure 
datacenter, rather than on a user's computer. In addition, GAO will 
continue progress toward upgrading building infrastructure heating and 
ventilation systems to ensure continued operation and efficiency. Most 
of the funding for these essential investments will come from savings 
within these programs.

Increasing the Efficiency of GAO's Processes is a Top Priority
    GAO has also made it a priority to increase the efficiency with 
which it conducts our mission work. This effort focuses on improving 
the way GAO manages and conducts engagements, uses its resources, and 
communicates its message. GAO made significant progress in fiscal year 
2012 to improve the efficiency of the processes it follows to produce 
GAO products. For example, GAO completed an end-to-end analysis of its 
engagement process and identified several areas of opportunity for 
improved efficiency, such as:
  --identifying changes to key steps and decision points in its 
        engagement process to ensure resource investments on individual 
        engagements are in line with congressional needs and needed 
        scope of work;
  --taking steps to more efficiently create content, standardize its 
        review and fact-checking procedures within its rigorous quality 
        assurance framework, as well as to distribute and publish its 
        reports and content in multiple formats; and
  --pursuing major enhancements to key engagement support and 
        management systems to reduce rework and improve systems support 
        and management information.
    GAO also created the new Office of Continuous Process Improvement 
to oversee and implement these and other improvement projects. Under 
the auspices of this new office, 7 projects have been completed; 25 are 
underway; and next steps for fiscal year 2013 have been developed. GAO 
also created an executive-level governance structure for prioritizing 
and directing process improvement initiatives.
    In fiscal year 2013 GAO will continue to identify other areas of 
opportunity for improved efficiency, and will continually prioritize 
how to use resources to ensure the most significant efficiency gains. 
In addition, GAO will develop performance metrics for the process 
improvement program to show the effect improvement initiatives are 
having on its operations. When implemented, these improvements will 
allow GAO to streamline and standardize these processes to achieve 
greater efficiency in its work without sacrificing quality, to increase 
its responsiveness to the Congress, and to deliver products to the 
Congress and the public more effectively and efficiently.

                     FISCAL YEAR 2014 REQUIREMENTS

    GAO`s revised estimate of $505.4 million would enable GAO to 
bolster its staff capacity and retain its highly skilled workforce. GAO 
could reduce its requirements to $502.5 million if the across-the-board 
pay increase is reduced from 1.8 percent to 1 percent as recommended by 
the President. GAO also plans to offset its costs with $44.8 million in 
receipts from rental income, a new bid protest user fee, and 
reimbursements from program and financial audits. The requested 
resources provide the funds necessary to ensure that GAO can meet the 
highest priority needs of the Congress and produce results to help the 
Federal Government deal effectively with its serious fiscal and other 
challenges.
    A summary of GAO's appropriation for fiscal years 2010-2014 is 
shown in Figure 1.

    FIGURE 1.--GAO APPROPRIATIONS: FISCAL YEAR 2010-FISCAL YEAR 2014
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year 2010 actual....................................      556,325
Fiscal year 2011 actual....................................      546,075
Fiscal year 2012 actual....................................      511,201
Fiscal year 2013 net appropriation (includes both the            479,548
 sequester and the rescission).............................
Fiscal year 2014 request with 1.8 percent pay increase.....      505,383
Fiscal year 2014 request with 1 percent pay increase.......      502,528
------------------------------------------------------------------------

    The requested funding level supports a staffing level of 2,945 
FTEs, and provides funding for mandatory pay costs, staff recognition 
and benefits programs, and activities to support congressional 
engagements and operations. These funds are essential to ensure GAO can 
address succession planning challenges, provide staff meaningful 
benefits and appropriate resources, and help ensure that GAO can 
compete with other agencies, nonprofit institutions, and private firms 
who offer these benefits.

Human Capital Challenges
    GAO depends on a talented, diverse, high-performing, and knowledge-
based workforce to carry out its mission to support the Congress. Like 
other Federal agencies, GAO is challenged to address several critical 
human capital management issues, while doing more with less. These 
issues include preparing for the retirement of executives and other 
senior managers, creating and maintaining a performance-based culture 
that helps to motivate and retain talented people, and implementing 
workplace practices that meet the needs of an ever-changing workforce 
in a fair and equitable manner.
    Succession planning remains critical. In just 3 years, GAO's FTE 
level will be reduced by nearly 14 percent. During that time GAO has 
had extremely limited hiring, and as a result, the number of entry-
level staff is not sufficient to provide a pipeline of experienced 
staff in the future. A significant proportion of GAO employees will be 
retirement eligible at the end of fiscal year 2013, including about 40 
percent of senior executive staff and about 26 percent of supervisory 
analysts. These factors combine to make GAO's overarching human capital 
challenge one of ensuring that it has the future capability to support 
the mission of the agency to serve the Congress with the right 
resources, where and when they are needed.
    GAO's funding request provides the resources to reinvigorate its 
hiring program to recruit entry-level staff and interns and fill 
critical vacancies. GAO also plans to increase funding--constrained in 
fiscal years 2012 and 2013--for recruitment and retention programs, 
such as student loan repayments and performance-based recognition to 
help (1) ensure its ability to attract, motivate, develop, and retain 
its highly skilled workforce; (2) address succession planning and skill 
gaps; and (3) ensure its ability to compete with private sector firms, 
nonprofit institutions, and other agencies who can offer these 
benefits.

Internal Efforts to Ensure Openness, Diversity and Fairness Continue
    GAO continues to work hard to achieve its diversity and 
inclusiveness goals.\1\ GAO's diversity efforts have been recognized 
both within the agency and externally. Most recently, in the 2012 best 
places to work list sponsored by the Partnership for Public Service--in 
which GAO ranked second overall among mid-size Federal agencies--we 
were rated number one in our support of diversity for the second year 
in a row. This important milestone notwithstanding, we realize that 
maintaining a work environment that supports a culture of inclusiveness 
is a dynamic and continuous process. We will continue to focus on 
diversity and inclusion, as it is a strategic goal that enhances our 
ability to fulfill our mission.
---------------------------------------------------------------------------
    \1\ We have two documents to help us monitor our progress and 
identify areas for improvement--our 2012-2015 Diversity and Inclusion 
Strategic Plan that focuses on 3 goals--(1) workforce diversity, (2) 
workplace inclusion and (3) sustainability, and our annual Workforce 
Diversity Plan which provides data on the composition of the workforce, 
information on outcomes from key human capital processes as well as 
views and suggestions from employees about the work environment.
---------------------------------------------------------------------------
    Additionally, in recognition of the importance of ensuring open 
lines of communication across GAO, I am intensifying communications 
with managers through several initiatives. This is particularly 
important as GAO addresses a number of external and internal 
challenges. For instance, the Executive Committee and I will meet 
regularly with individuals from all teams and staff offices. Every 
spring GAO will hold a town hall meeting so leadership can provide an 
update as to how the year is progressing and hear from staff directly, 
answering questions along the way. Of course, the Executive Committee 
and I will also monitor events and hold informational sessions or other 
discussions with employees as events warrant.
    We maintained our productive working relationship with the 
employees' union, GAO Employee's Organization, International Federation 
of Professional and Technical Engineers (IFPTE), Local 1921, and 
reached agreement on several initiatives, including approval of our new 
performance appraisal system. We welcomed the establishment of a new 
bargaining unit with IFPTE, Local 1921, for our administrative 
professional and support staff. We are also working with the Employee 
Advisory Council and the Diversity Advisory Council on several issues.

Filing Fees Reduce Taxpayer Costs
    GAO's fiscal year 2014 budget request proposes new statutory 
authority to collect a filing fee from companies filing bid protests. 
The sole purpose of the filing fee would be to offset the cost of 
developing, implementing, and maintaining an electronic docketing 
system. GAO plans to collect a small filing fee, similar to other 
Federal and State entities, which will shift the cost from taxpayers to 
the companies that directly benefit from the system.
    For more than 80 years, GAO has provided an objective, independent, 
and impartial quasi-judicial forum for the resolution of disputes 
concerning the award of Federal contracts. By law, GAO is required to 
resolve all protests within 100 calendar days from the date the protest 
is filed. GAO has experienced a significant increase in bid protest 
filings, from 1,411 filings in fiscal year 2007 to 2,475 filings in 
fiscal year 2012. In fiscal year 2011, GAO received more than 16,000 
protest-related e-mail messages, many of which contain time-sensitive 
material critical to the effective resolution of the protest within the 
100-day statutory period.
    GAO's current manual docketing system is a highly resource 
intensive administrative function that is outstripping available 
resources. An electronic filing system would make better use of 
available resources, minimize the potential for human error, provide 
automatic and immediate notification to agencies that a protest has 
been filed at GAO, and provide a useful service to the parties during 
the course of a protest since they could instantaneously access all 
public documents filed in a particular protest through a readily 
accessible web-based portal.

  MANAGING WORKLOAD BY FOCUSING RESOURCES ON CONGRESSIONAL PRIORITIES

    To manage its congressional workload during this period of 
declining budgets and staff resources, GAO continues to take steps to 
ensure its work supports congressional legislative and oversight 
priorities and focuses on areas where there is the greatest potential 
for results in producing cost savings and improving Government's 
performance. GAO gives priority to mandates \2\ and requests from 
congressional committee leaders which allows it to support 
congressional committees as they carry out their appropriation, 
authorization, and oversight activities. GAO also focuses on areas 
where there is the greatest potential for results, such as 
recommendations that identify cost savings, improve Government 
agencies, and provide other benefits, such as improving public safety 
and security.
---------------------------------------------------------------------------
    \2\ Congress may enact legislation that includes a requirement for 
GAO to conduct a particular study or request a GAO study in a Committee 
or Conference Report. At GAO, both types of requests are treated as 
``mandates''. Repeal or modification of a statutory mandate included in 
legislation requires a statutory change.
---------------------------------------------------------------------------
    To ensure GAO prioritizes its work to align with congressional 
leadership priorities and potential for results, GAO consults 
continuously with congressional committees to ensure that its work is 
focused on their highest priorities. Communicating frequently with 
congressional clients helps GAO stay abreast of their needs as shifts 
in congressional priorities can change the mix of work GAO is asked to 
perform. GAO outreach includes my meetings with the Chairs and Ranking 
Members of many of the standing committees.
    These sessions provide me the opportunity to hear first-hand the 
feedback from committee Chairs and Ranking Members on GAO's 
performance, as well as provide an opportunity to highlight the need to 
prioritize requests for GAO's services to maximize the return on the 
investment in GAO, particularly in this time of financial and budgetary 
uncertainty and constraint. Further, when GAO receives multiple 
requests for work in areas of high priority for the Congress, GAO also 
looks for opportunities, in consultation with congressional committees 
and their staff, to merge these requests to create one body of work to 
meet multiple needs. In addition, most of GAO's reports issued in 
2012--about 61 percent--were addressed to Members of both parties. In 
fiscal year 2012, demand for GAO's services remained high with 924 
congressional requests and mandates as illustrated in Figure 2.

                  FIGURE 2.--CONGRESSIONAL REQUESTS RECEIVED: FISCAL YEAR 2003-FISCAL YEAR 2012
----------------------------------------------------------------------------------------------------------------
                                                                   Full
                                                                 committee  Subcommittee    Member     Mandates
                                                                 requests      requests    requests
----------------------------------------------------------------------------------------------------------------
Fiscal year 2003..............................................         449          390          177          95
Fiscal year 2004..............................................         451          391          166         110
Fiscal year 2005..............................................         434          349          135         109
Fiscal year 2006..............................................         430          413          139          82
Fiscal year 2007..............................................         608          394          134          75
Fiscal year 2008..............................................         475          381          190         160
Fiscal year 2009..............................................         362          316          115         131
Fiscal year 2010..............................................         376          320          105         173
Fiscal year 2011..............................................         387          353           93          89
Fiscal year 2012..............................................         349          300           97         195
----------------------------------------------------------------------------------------------------------------

    To manage GAO's workload from mandates, GAO also conducts 
congressional outreach regarding both potential and existing mandates. 
As bills are introduced weekly, GAO immediately reviews them to 
identify potential mandates for GAO work. As each potential mandate 
moves through the legislative process, GAO engages directly with the 
relevant committee or subcommittee to ensure that the mandate reflects 
a high priority requirement of the Congress, is scoped appropriately 
for meeting the congressional objective, avoids duplication of recently 
completed or ongoing work, and calls for work that is within GAO's 
authority.
    In addition, GAO continues to work with congressional committees to 
amend or repeal existing statutory mandates for GAO studies that have 
outlived their usefulness or do not represent the best use of GAO's 
resources given current congressional priorities. During the second 
session of the 112th Congress GAO collaborated with the Congress to 
revise or repeal 16 of GAO's mandated reporting requirements which had, 
over time, lost relevance or usefulness.
    GAO is also seeking repeal of a recurring reporting requirement 
that originally appeared in the legislative branch appropriations 
section of the American Recovery and Reinvestment Act. This requirement 
required bimonthly reviews of State and local use of Recovery Act 
funds. As the vast majority of Recovery Act funds have been spent, 
GAO's reviews are providing diminishing returns for the Congress. GAO 
proposes to sunset this bimonthly requirement.

                           CONCLUDING REMARKS

    Fiscal year 2013 brings more challenges with responsibilities to 
further assess and report on Government programs and financial 
regulatory reform efforts, among many other pressing issues. However, 
the effect of sequestration has further eroded GAO's staffing level and 
will severely limit GAO's ability to conduct its mission in an 
efficient and effective manner now and into the future.
    If GAO's funding is reduced below the requested level, additional 
reductions in GAO's staffing level would be inevitable, adversely 
affecting its ability to produce results that can help deal with the 
Federal Government's fiscal challenges; provide timely, insightful 
analysis on congressional priorities and challenges facing the Nation; 
and reduce the number of requests that GAO could complete. GAO would 
continue to focus only on limited critical replacement hires, as it did 
in fiscal years 2010-2013, further reducing GAO's staff capacity. As a 
knowledge-based organization, about 81 percent of GAO's resources fund 
staff compensation and benefits. Given the magnitude of the spending 
reductions GAO has implemented since fiscal year 2010, GAO is extremely 
limited in its ability to target additional reductions in other areas 
beyond what has already been taken in order to meet the basic 
operations of the agency.
    Further staffing reductions would diminish GAO's ability to find 
cost savings or revenue in the Federal Government at a time when 
Congress needs it most given the Federal Government's fiscal position. 
For example, GAO's reduced staffing levels would adversely impact GAO's 
ability to:
  --identify cost savings and improvements in Government operations, 
        improve services to the public, conserve Federal financial 
        resources, and initiate Government-wide reforms;
  --effectively assist the Congress in addressing the broad array of 
        social, economic, and security challenges facing the Nation;
  --provide timely and responsive information to support congressional 
        deliberations or reauthorization activities for pending 
        programs; and
  --staff requested engagements, resulting in delays in starting 
        congressional requests.
    GAO has been and will continue to reach out to its congressional 
clients to ensure they recognize GAO's financial situation, to help 
focus GAO's work on the highest-priority areas, and help prioritize GAO 
work to obtain the maximum benefit in this resource-constrained 
environment. GAO remains committed to providing accurate, objective, 
nonpartisan, and constructive information to the Congress to help it 
conduct effective oversight and fulfill its constitutional 
responsibilities.
    As the Congress and the administration debate ways to improve the 
Federal Government's long-term fiscal outlook, GAO's mission becomes 
ever more critical to help identify billions of dollars in cost-saving 
opportunities to tighten Federal budgets in a thoughtful, targeted way 
and identify revenue-enhancement opportunities in a prudent manner.
    Chairwoman Shaheen, Ranking Member Hoeven, and members of the 
subcommittee, this concludes my prepared statement. I appreciate, as 
always, your careful consideration of our circumstances and budgetary 
needs and look forward to discussing the matter with you.

Appendix I: Selected Testimony Topics for Fiscal Year 2012 by Strategic 
                                Goal \1\

Goal 1: Address Current and Emerging Challenges to the Well-Being and 
        Financial Security of the American People
DOD and VA Healthcare Integration
Medicare Durable Medical Equipment
FDA's Ability to Respond to Drug Shortages
Oversight of Medicaid Payments
Urgent Local Workforce Needs
Modernizing SSA's Disability Programs
Unemployed Older Workers
School Bullying
Transportation Issues and Management Challenges
Small Employers Challenges to Pension Plan Sponsorship
Fragmented Economic Development Programs
Federal Real Property Management
Mortgage Finance Risk Management
Federal Reserve System's Emergency Assistance
Climate Change Adaptation
Unmanned Aircraft Systems
Unconventional Oil and Gas Production
Commercial Space Transportation
Improving Homelessness Programs
Los Angeles Federal Courthouse Construction
Federal Housing Administration's Mutual Mortgage Insurance Fund
Goal 2: Respond to Changing Security Threats and the Challenges of 
        Global Interdependence
National Nuclear Security Administration Management
Deepwater Horizon
Securing the Modernized Electricity Grid
Visa Waiver Program
TSA's Process for Vetting Foreign Flight Students
DHS's Container Security Programs
FEMA's Management of Preparedness Grants
DHS's Progress Improving and Integrating Management
DOD's Acquisition Workforce Capacity
Personnel Security Clearances
Military Base Realignments and Closures
Joint Striker Fighter Restructuring
DOD Satellite Acquisitions
DOD's Civilian Workforce
Countering the Use of Improvised Explosive Devices
Support and Security Capabilities in Iraq
Goal 3: Help Transform the Federal Government to Address National 
        Challenges
Arlington National Cemetery Contract Management
Coast Guard's Deepwater Program
Suspension and Debarment Oversight
Medicare Part D Fraud and Prescription Drug Abuse
Reducing Improper Payments
Social Security Administration Technology Modernization
Improving 2020 Census Cost Effectiveness
Internet Availability of Counterfeit Military-Grade Electronic Parts
Fiscal Year 2011 U.S. Government Financial Statements
Fraud Prevention in Service-Disabled Veteran-Owned Small Business 
Program
Environmental Satellite Program Risks
Information Technology Reform
Federal Workforce Challenges
Effective Long-term Disaster Recovery
Evaluating Expiring Tax Provisions
Strategies to Reduce Taxpayer Noncompliance
IRS's Opportunities to Improve the Taxpayer Experience
Army Financial Audit Readiness
Centers for Medicare & Medicaid Fraud Detection Systems
Oversight of Psychotropic Prescription Drugs for Foster Children

    \1\ GAO's complete set of strategic planning and performance and 
accountability reports are available on its website at [hyperlink, 
http://www.gao.gov/sp.html].

              Appendix II: GAO's Strategic Plan Framework

  SERVING THE CONGRESS AND THE NATION: GAO'S STRATEGIC PLAN FRAMEWORK

    Mission.--GAO exists to support the Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
ensure the accountability of the Federal Government for the benefit of 
the American people.
    Trends.--National Security Threats; Fiscal Sustainability 
Challenges; Economic Recovery and Growth; Global Interdependency; 
Science and Technology; Networks and Virtualization; Shifting Roles of 
Government; and Demographic and Societal Change.

------------------------------------------------------------------------
                   Goals                             Objectives
------------------------------------------------------------------------
Provide Timely, Quality Service to the
 Congress and the Federal Government to:
    . . . Address Current and Emerging      Healthcare needs; Lifelong
     Challenges to the Well-being and        learning; Benefits and
     Financial Security of the American      protections for workers,
     People related to. . .                  families, and children;
                                             Financial security;
                                             Effective system of
                                             justice; Viable
                                             communities; Stable
                                             financial system and
                                             consumer protection;
                                             Stewardship of natural
                                             resources and the
                                             environment; and
                                             Infrastructure.
    . . . Respond to Changing Security      Homeland security; Military
     Threats and the Challenges of Global    capabilities and readiness;
     Interdependence involving. . .          U.S. foreign policy
                                             interests; and Global
                                             market forces.
------------------------------------------------------------------------
Help Transform the Federal Government to    Government's fiscal position
 Address National Challenges by assessing.   and options for closing
 . .                                         gap; Fraud, waste, and
                                             abuse; and Major management
                                             challenges and program
                                             risks.
------------------------------------------------------------------------
Maximize the Value of GAO by Enabling       Efficiency, effectiveness,
 Quality, Timely Service to the Congress     and quality; Diverse and
 and Being a Leading Practices Federal       inclusive work environment;
 Agency in the areas of. . .                 Professional networks and
                                             collaboration; and
                                             Institutional stewardship
                                             and resource management.
------------------------------------------------------------------------

    Core Values.--Accountability; Integrity; and Reliability.

Source: GAO.

    Senator Shaheen. Thank you very much. I wondered why you 
looked so startled when I called on you, and I realize it is 
because I forgot to call on the ranking member for his opening 
comment, so let me go back to that.
    Mr. Dodaro. I did not say anything. I was tempted.
    Senator Shaheen. You should have.

                    STATEMENT OF SENATOR JOHN HOEVEN

    Senator Hoeven. Chairwoman Shaheen, that is fine. I figured 
I would have plenty of opportunity to express any opinions and 
certainly ask questions. So thank you and certainly, no worries 
there.
    I just want to also express both my welcome this morning 
and my appreciation for the work that you do, and I look 
forward to this discussion on how we can do the best possible 
job with your budget and your appropriation.
    Thanks so much.
    Senator Shaheen. Thank you.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF DAVITA VANCE-COOKS, ACTING PUBLIC PRINTER
    Senator Shaheen. And now I will call on Miss Vance-Cooks.
    Ms. Vance-Cooks. Chairwoman Shaheen, Ranking Member Hoeven, 
and members of the subcommittee.
    Good morning and thank you for inviting me to be here. I 
will briefly summarize my prepared statement, which has been 
submitted for the record.
    This year, we rebranded the Government Printing Office 
(GPO) as the official, digital, secure resource for producing, 
procuring, authenticating, disseminating, and preserving the 
official information products of all three branches of the 
Federal Government. Our rebranding reflects our transition to 
digital technologies.
    For decades, GPO was primarily a printing operation. Today, 
we are smaller. We are leaner. And we are, in fact, a 
publishing operation. We carry out our mission by using a wide 
range of digital and conventional formats. And I firmly believe 
that the GPO should have a name change. I believe that the GPO 
should be called the Government Publishing Office.
    Today, the public knows us by our Web site, the Federal 
Digital System, or FDsys. It currently makes more than 800,000 
digital Government documents available from all three branches 
of the Government permanently and free to the public. More than 
37 million documents are downloaded each month, and we recently 
achieved a milestone of 500 million downloads since 2009.
    We have leveraged FDsys to develop mobile apps of 
congressional and agency information. We provide Federal 
Register and congressional bill data in bulk XML format. We 
offer Government documents for sale in print and e-book formats 
through a secure, online bookstore.
    The e-passports that we produce today for the State 
Department contain computer chips for biometric data. We offer 
secure credentials to both congressional and Federal agency 
offices as smart cards, and they contain the latest in digital 
security measures. Today, we are doing all of this with the 
fewest number of employees ever in this past century.
    Our fiscal year 2014 budget reflects our commitment to 
digital transformation. Our budget needs, which are primarily 
for investment in technology, are fundamentally important to 
our ongoing digital transformation and, yes, future savings.
    Earlier this year, we originally proposed a modest 1.2-
percent increase in our budget versus the previous request, but 
since then, we know the fiscal landscape has changed. Yet, our 
need to move forward with digital transformation remains the 
same.
    Our business model is not like other agencies. It depends 
on a combination of appropriations and earned revenue. About 16 
percent of our budget comes from appropriations. The balance, 
84 percent, we earn it, and we earn it by providing goods and 
services to other Federal agencies and to the public.
    Unfortunately, the sequester has impacted this model, and 
it has subjected us to the spending decisions of other Federal 
agencies, who themselves are subject to the sequester. We are 
already seeing signs that the Federal agencies are cutting back 
on their orders. To offset this reduction in revenues, we are 
doing everything we can to avert furloughs. This is because we 
know that our employees are essential in making sure that we 
can provide the essential work for Congress.
    So we have imposed a hiring freeze except in special cases. 
We have cut travel. We have reduced training, and we have 
limited overtime.
    In fiscal year 2012, the Congress ordered the National 
Academy of Public Administration to study the GPO. The Academy 
concluded that GPO's core mission of authenticating, 
preserving, and distributing Federal information remains 
critically important to American democracy in the digital age. 
This conclusion by NAPA supports our strategic direction and 
supports our budget request for fiscal year 2014.

                           PREPARED STATEMENT

    So Chairwoman Shaheen, Senator Hoeven, and members of the 
subcommittee, we look forward to working with you and your 
staff as we go forward with our budget request.
    And I look forward to answering your questions. Thank you.
    Senator Shaheen. Thank you very much.
    [The statement follows:]

                Prepared Statement of Davita Vance-Cooks

    Chairwoman Shaheen, Ranking Member Hoeven, and members of the 
Subcommittee on Legislative Branch appropriations, it is an honor to be 
here today to discuss the Government Printing Office and our 
appropriations request for fiscal year 2014. As background, my prepared 
statement includes an overview of the functions and operations of GPO 
and the results of the recently released study of the National Academy 
of Public Administration.

                       GOVERNMENT PRINTING OFFICE

    The Government Printing Office (GPO) is the official, digital, 
secure resource for producing, procuring, cataloging, indexing, 
authenticating, disseminating, and preserving the official information 
products of the Federal Government.
    Under title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Government, including the official publications of 
Congress and the White House, U.S. passports for the Department of 
State, and the official publications of other Federal agencies and the 
courts. Once primarily a printing operation, we are now a publishing 
operation and we carry out our mission using an expanding range of 
digital as well as conventional formats. Total GPO employment today is 
about 1,900.
    Along with sales of publications in digital and tangible formats to 
the public, GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through our Federal Digital System (FDsys, at www.fdsys.gov), 
which today makes more than 800,000 Federal titles available online 
from both GPO's servers and links to servers in other agencies, and 
sees more than 37 million documents downloaded every month. We also 
provide public access to Government information through partnerships 
with approximately 1,200 libraries nationwide participating in the 
Federal Depository Library Program.
    In addition to GPO's Web site, www.gpo.gov, we communicate with the 
public routinely via Twitter twitter.com/USGPO, YouTube http://
www.youtube.com/user/gpoprinter, Facebook http://www.facebook.com/
USGPO, and most recently Pinterest http://pinterest.com/usgpo/.
    History.--GPO first opened its doors for business on March 4, 1861, 
the same day Abraham Lincoln was inaugurated as the 16th President. Our 
mission can be traced to the requirement in Article I, section 5 of the 
Constitution that ``each House shall keep a journal of its proceedings 
and from time to time publish the same.'' We have produced and 
distributed the official version of every great American state paper--
and an uncounted number of other Government publications--since 
Lincoln's time, including the Emancipation Proclamation, the 
legislative publications and acts of Congress, Social Security cards, 
Medicare and Medicaid information, census forms, tax forms, citizenship 
forms, military histories ranging from the Official Records of the War 
of the Rebellion to the latest accounts of our forces in Afghanistan, 
the 9/11 Commission Report, Presidential inaugural addresses, and 
Supreme Court opinions.
    Technology Transformation.--GPO has continually transformed itself 
throughout its history by adapting to changing technologies. In the 
ink-on-paper era, this meant moving from hand-set to machine 
typesetting, from slower to high-speed presses, and from hand to 
automated bookbinding. These changes were significant for their time. 
Yet they pale by comparison with the transformation that accompanied 
our incorporation of electronic information technologies, which began 
50 years ago in 1962 when the Joint Committee on Printing directed the 
agency to develop a new system of computer-based composition. That 
order led to the development of GPO's first electronic photocomposition 
system, which by the early 1980's had completely supplanted machine-
based hot metal typesetting. Following the enactment of the GPO 
Electronic Information Access Enhancement Act in 1993, the databases 
generated by our composition system were uploaded to the Internet via 
GPO's first Web site, GPO Access, vastly expanding the agency's 
information dissemination capabilities. Those functions continue today 
with FDsys on a more complex and comprehensive scale.
    As a result of these sweeping technology changes, GPO is now 
fundamentally different from what it was as recently as a generation 
ago. We are smaller, leaner, and equipped with digital production 
capabilities that are the bedrock of the information systems relied 
upon daily by Congress, Federal agencies, and the public to ensure open 
and transparent Government in the digital era. Our technology 
transformation is continuing with the development of new ways of 
delivering Government information, including apps and bulk data 
download files.

                            GPO AND CONGRESS

    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, GPO produces the documents and 
publications required by the legislative and oversight processes of 
Congress. This includes but is not restricted to the daily 
Congressional Record, bills, reports, legislative calendars, hearings, 
committee prints, and documents, as well as stationery, franked 
envelopes, memorials and condolence books, programs and invitations, 
phone books, and the other products needed to conduct business of 
Congress. We also detail expert staff to support the information 
product requirements of House and Senate committees and congressional 
offices such as the House and Senate Offices of Legislative Counsel.
    Today the activities associated with creating congressional 
information databases comprise the vast majority of the work funded by 
our annual Congressional Printing and Binding Appropriation. In 
addition to using these databases to produce printed products as 
required by Congress, GPO uploads them to the Internet via FDsys, and 
they are the source of the apps we build for congressional information. 
Our advanced digital authentication system, supported by public key 
infrastructure (PKI), is an essential component for assuring the 
digital security of congressional documents.
    GPO's congressional information systems also form the building 
blocks of other information systems supporting Congress. Our 
congressional information databases are provided directly to the 
Library of Congress (LOC) to support its THOMAS system--and the new 
Congress.gov system--as well as the legislative information systems the 
Library makes available to House and Senate offices. We are also 
collaborating with the Library on the digitization of previously 
printed documents, such as the Congressional Record, to make them more 
broadly available to Congress and the public; the development of a new 
process for updating the digital edition of the Constitution Annotated; 
and expanding the availability of House bill data in XML bulk data 
format.
    GPO Cuts the Cost of Congressional Work.--The use of electronic 
information technologies by GPO has been a principal contributor to 
lowering the cost, in real economic terms, of congressional information 
products. In fiscal year 1980--as we began replacing hot metal 
typesetting with electronic photocomposition--the appropriation for our 
Congressional Printing and Binding Appropriation was $91.6 million, the 
equivalent in today's dollars of $255.9 million. By comparison, our 
approved funding for fiscal year 2013 under the current continuing 
resolution is $82.1 million, a reduction of more than two-thirds in 
constant dollar terms.
    Productivity increases resulting from technology have enabled us to 
make substantial reductions in staffing requirements while continuing 
to improve services for Congress. In 1980, GPO employment was 
approximately 6,450. Today, we have approximately 1,900 employees on 
board, representing a 31-year reduction of 4,550, or more than 70 
percent. This is the smallest GPO workforce of any time in the past 
century.
    Highlights of Fiscal Year 2012 Congressional Work.--In 2012, we 
introduced our first app, the Mobile Member Guide, which provided the 
public with quick, easy access to information on Members of the 112th 
Congress. We also collaborated with LOC for the creation of an iPad app 
for the daily Congressional Record. Late in the year, we made United 
States Policy and Supporting Positions, or the Plum Book as it is 
popularly known, available for the first time as an app. At the 
direction of the House Appropriations Committee, and in support of the 
task force on bulk data established by House report 112-511, we now 
make House bills available in XML bulk data format, beginning with the 
113th Congress.
    About a year ago we started work on the requirements for the 2013 
Presidential inauguration, under the direction of the Joint 
Congressional Committee on Inaugural Ceremonies. We designed and 
produced approximately 80 different products for the event, including 
invitations, tickets, signs, pins, and other items that supported the 
organization and conduct of the inaugural ceremonies. We also produced 
secure credentials for the event.

                        GPO AND FEDERAL AGENCIES

    Federal agencies are major generators of information content, and 
GPO produces their information products for official use and public 
access. Federal agencies and the public also rely on a growing variety 
of secure credentials produced by GPO, including travelers holding U.S. 
passports, frequent U.S. border crossers, Medicare beneficiaries in 
Puerto Rico, and other users. Our digital systems support key Federal 
agency publications, including the annual Budget of the U.S. Government 
and the Federal Register and associated products. As it does for 
congressional documents, our digital authentication system, supported 
by public key infrastructure (PKI), assures the digital security of 
agency documents.
    Highlights of Fiscal Year 2012 Agency Operations.--In 2012 we made 
the fiscal year 2013 Budget of the U.S. Government available for the 
first time as a mobile app. The app had more than 53,000 visits in the 
first 24 hours. For this work, we received a Digital Government 
Achievement Award from the Center for Digital Government, which 
recognizes outstanding web sites and applications developed by Federal, 
State, and local Government agencies. We recently released an app for 
the fiscal year 2014 Budget. With the Office of the Federal Register, 
we also developed an app for the Public Papers of the President. This 
app has search capabilities allowing users to access content about the 
President by searching by date, category, and subject, as well as a 
geolocation feature providing users with access to the most recent 
content near their location.
    A major document that GPO produces is the U.S. passport for the 
Department of State, which we have been responsible for since 1926. At 
one time no more than a conventionally printed document, the U.S. 
passport since 2005 has incorporated a digital chip and antenna array 
capable of carrying biometric identification data. With other security 
printing features, this document--which we produce in Washington, DC, 
as well as a remote facility in Mississippi--is now the most secure 
identification credential obtainable. We also now offer a line of 
secure identification smart cards to support the credentialing 
requirements of Federal agencies. Our secure credential unit has been 
certified as the only government-to-government provider of credentials 
meeting the requirements of Homeland Security Presidential Directive 12 
(HSPD-12).
    In 2012, we passed the milestone of producing the 75 millionth 
electronic passport. We also received direction from the Department of 
State to proceed with the necessary investment in equipment and 
infrastructure to begin producing the next generation passport in 2015. 
During the year, we were approved by the Joint Committee on Printing to 
expand our card production operations at our facility in Mississippi. 
This new capability will be brought online following its official 
opening next week.
    Partnership With Industry.--Other than congressional and inherently 
governmental work such as the Federal Register, the Budget, and secure 
and intelligent documents, we produce virtually all other Federal 
agency information product requirements via contracts in partnership 
with the private sector printing and information product industry. This 
work amounted to nearly $350 million in fiscal year 2012. Approximately 
16,000 individual firms are registered to do business with GPO, the 
vast majority of whom are small businesses averaging 20 employees per 
firm. Contracts are awarded on a purely competitive basis; there are no 
set-asides or preferences in contracting other than what is specified 
in law and regulation, including a requirement for Buy American. This 
partnership provides significant economic opportunity for the private 
sector.

                  GPO AND OPEN, TRANSPARENT GOVERNMENT

    Producing and distributing the official publications and 
information products of the Government fulfills an informing role 
originally envisioned by the Founders, as James Madison once said:

    ``A popular Government without popular information, or the means of 
acquiring it, is but a Prologue to a Farce or a Tragedy, or perhaps 
both. Knowledge will forever govern ignorance, and a people who mean to 
be their own Governors, must arm themselves with the power which 
knowledge gives.''

    GPO operates a variety of programs that provide the public with 
``the means of acquiring'' Government information that Madison spoke 
of.
    Federal Depository Library Program.--GPO administers the Federal 
Depository Library Program, whose legislative antecedents date back 200 
years to 1813. Across those years, depository libraries have served as 
critical links between ``We the People'' and the information made 
available by Federal Government. GPO provides the libraries with 
information products in digital and, in some cases, tangible formats, 
and the libraries in turn make these available to the public at no 
charge while providing additional help and assistance to depository 
library users. The program today serves millions of Americans through a 
network of approximately 1,200 public, academic, law, and other 
libraries located across the Nation, averaging nearly 3 per 
congressional district. Once primarily involving the distribution of 
printed and microfiche products, the FDLP today is predominantly 
digital, supported by FDsys and other digital resources.
    A major FDLP effort during fiscal year 2012 was the State 
Forecasting Project, a collaborative research project between GPO and 
depository libraries, which surveyed all depository libraries to assess 
the current conditions of the program. Primary issues identified in the 
survey included budget constraints, use of physical space, staffing, 
and collection scope changes. GPO received responses from 775 
depository libraries in 38 States. Results from this initiative will 
serve as a blueprint for developing a new national plan for the future 
of the FDLP.
    Federal Digital System.--FDsys provides the majority of 
congressional and Federal agency content to the FDLP as well as other 
online users. This system has reduced the cost of providing public 
access to Government information significantly when compared with 
print, while expanding public access dramatically through the Internet. 
Public utilization of FDsys grew to more than 400 million document 
retrievals by the end of fiscal year 2012. Currently, the system 
provides access to nearly 800,000 individual titles from all three 
branches of the Government, the only system of its kind in operation 
today.
    GPO is continually adding collections to FDsys to provide increased 
public access to Government information. In 2012, we had the 
opportunity to make audio content available for the first time on 
FDsys. The National Archives and Records Administration (NARA) asked us 
to host the audio tape recordings of communications between the White 
House and Air Force One following the assassination of President John 
F. Kennedy. As a result of hosting the audio recordings, there were a 
record number of visits to FDsys over a 5-day period.
    Publication and Information Sales Program.--Along with the FDLP and 
FDsys, which are no-fee public access programs, we provide public 
access to official Federal information through e-commerce public sales 
featuring secure ordering through an online bookstore, a bookstore at 
GPO headquarters in Washington, DC, and partnerships with the private 
sector to offer Federal publications as ebooks. Our presence in the 
ebook market continues to grow. We entered into two important 
agreements in 2012 with Barnes & Noble and Apple to make popular 
Government titles such as the Public Papers of the President Barack 
Obama, the Financial Crisis Inquiry Report, and Ponzimonium: How Scam 
Artists are Ripping Off America available as ebooks. We now have 
agreements with Apple, Google's eBookstore, Barnes & Noble, OverDrive, 
Ingram, Zinio, and other online vendors to sell Federal ebooks and 
magazines.
    Reimbursable Distribution Program.--We operate distribution 
programs for the information products of other Federal agencies on a 
reimbursable basis, including General Services Administration (GSA) 
Consumer Information Center publications, from warehouses in Pueblo, 
Colorado, and Laurel, Maryland.
    GPO and Social Media.--We use Facebook, Twitter, YouTube, and a 
book blog to share information about GPO news and events, and to 
promote specific publications and products. By the end of 2012, we had 
2,000 likes on Facebook, 4,300 followers on Twitter, and 64,000 views 
across nearly 50 videos on YouTube. Our book blog, Government Book 
Talk, focuses on increasing the awareness of new and classic Federal 
publications through reviews and discussions. Recently, we started up a 
presence on Pinterest.
    Revolving Fund.--All GPO activities are financed through a 
business-like Revolving Fund. The fund is used to pay all of our costs 
in performing congressional and agency printing, printing procurement, 
and distribution activities. It is reimbursed from payments from 
customer agencies, sales to the public, and transfers from our two 
annual appropriations, the Congressional Printing and Binding 
Appropriation and the Salaries and Expenses Appropriation of the 
Superintendent of Documents. Our appropriations constitute 
approximately 16 percent of our annual revenues. All other revenues are 
earned from the production of goods and services for customer agencies 
and sales to the public.
    Appropriated Funds.--Our Congressional Printing and Binding 
Appropriation is used to reimburse the Revolving Fund for costs 
incurred in performing congressional work. Our Salaries and Expenses 
Appropriation of the Superintendent of Documents is used to pay for 
costs associated with depository library distribution, cataloging and 
indexing, statutory distribution, and international exchange 
distribution. The reimbursements from these appropriations are included 
in GPO's total revenue. Occasionally, we also receive direct 
appropriations to the Revolving Fund for specific purposes, including 
investment in digital technology development and repairs to our 
buildings.
    Fiscal Year 2012 Financial Results.--For fiscal year 2012, total 
revenue totaled $713.8 million, and total operating expenses were 
$708.6 million, excluding Other Operating Expense. Other Operating 
Expense was a $2.4 million adjustment to increase our long-term 
workers' compensation liability as established by the Department of 
Labor. As a result, we realized net income of $5.2 million for the year 
before Other Operating Expense, and net income of $2.9 million after. 
Our financial statements are audited annually by an independent third 
party contracted for by our Office of the Inspector General, and we 
routinely receive an unqualified, or ``clean,'' opinion, as we did for 
the fiscal year 2012 audit.
    Fiscal Year 2013 Appropriations.--For fiscal year 2013, we 
requested a total of $126.2 million that would enable us to meet 
projected requirements for congressional printing and binding, operate 
GPO's statutory information dissemination programs, and provide 
investment funds to continue the development of FDsys and provide for 
necessary facilities repairs. Our request represented no increase over 
the level of funding provided for fiscal year 2012. Under that cap, 
however, we proposed decreasing the funding for congressional printing 
and binding while increasing it for expanded investments in digital 
technology and other improvements. The continuing resolution for the 
first 6 months of fiscal year 2013 (Public Law 112-75) froze our 
funding at the fiscal year 2012 level plus .612 percent but did not 
change the distribution of funds among our accounts.
    The continuing resolution enacted in March 2013 for the remainder 
of the fiscal year (Public Law 113-6) reduced GPO's funding to $119.1 
million before the application of the sequester. Subsequently, we were 
contacted by the Office of Management and Budget with information on 
section 253(f)(2) of the Balanced Budget and Emergency Deficit Control 
Act of 1985 (BBEDCA, which is referenced in the Budget Control Act of 
2011 authorizing the sequester), concerning reductions to sequestration 
for those agencies whose pre-sequester totals in the continuing 
resolution for the balance of the year are less than those approved in 
the continuing resolution for the first 6 months of the year. Following 
OMB's guidance, we have calculated that under this provision our post-
sequester total would be about $117.5 million, as opposed to the $112.3 
million post-sequester total that we originally thought would apply.
    Fiscal Year 2014 Appropriations Request.--GPO's total 
appropriations request of $128.5 million for fiscal year 2014 will 
enable us to: meet projected requirements for GPO's congressional 
printing and binding operations during fiscal year 2014; fund the 
operation of GPO's statutory information dissemination programs and 
provide investment funds for necessary information dissemination 
projects; and continue the development of FDsys, implement other 
improvements to our IT and facilities infrastructure, and invest in 
more efficient equipment supporting congressional work.
    Our request represents an increase of $1.5 million, or 1.2 percent, 
over the level of funding provided for the first half of fiscal year 
2013 by Public Law 112-75. Compared with the funding provided for the 
second half of fiscal year 2013, it represents an increase of $9.4 
million, or 7.9 percent, over the pre-sequester level of funding 
provided in Public Law 113-6, and $11 million, or 9.4 percent, over the 
post-sequester level of funding provided by Public Law 113-6, as 
calculated in accordance with section 253(f)(2) of the BBEDCA.
    Significantly, and as compared with the levels of funding provided 
in both Public Law 112-75 and Public Law 113-6, our request includes a 
decrease in funding for Congressional Printing and Binding and an 
increase in appropriations to GPO's Revolving Fund, which will be used 
to pay for essential growth for FDsys (whose support is strongly 
recommended by the recent study of the National Academy of Public 
Administration), as well as transitioning our binding line to a digital 
system (which will lead to future savings) and necessary IT and 
infrastructure repairs.
    Congressional Printing and Binding Appropriation.--We are 
requesting $79.7 million for this account. This amount represents a 
decrease of $11.5 million, or 13 percent, compared with the funding 
provided in Public Law 112-75. It also represents a decrease in the 
level of funding provided by Public Law 113-6: $3.9 million from the 
pre-sequester level and $2.4 million from the post-sequester level as 
determined under section 253(f)(2) of the BBEDCA.
    GPO has no control over the workload requirements of the 
Congressional Printing and Binding Appropriation. These are determined 
by the legislative activities and requirements of the House of 
Representatives and the Senate as authorized by the applicable 
provisions of title 44, U.S.C. GPO utilizes historical data 
incorporating other relevant factors to develop estimates of likely 
congressional printing and binding workload requirements. These 
requirements are used as the basis of the budget presentation for this 
account.
    We estimate that total congressional printing and binding 
requirements for fiscal year 2014 will be $89.7 million based on 
historical data. Last year, with the approval of the Appropriations 
Committees, we transferred $9.9 million in prior year unexpended 
balances of this account to the Revolving Fund. Some of these funds are 
likely to be used to cover fiscal year 2013 requirements. The balance, 
as well as any other prior year amounts that are determined to be 
needed and available, will be requested for transfer to fund fiscal 
year 2014 requirements.
    The estimated requirements for fiscal year 2014 include a price 
level increase of $1.5 million, based on an average 2 percent increase 
due to projected increases in printing costs. They also included a 
projected $1.2 million in volume increases, due principally to business 
and committee calendars, the Congressional Record, congressional bills, 
and other workload categories. These cost increases will be covered by 
the prior year funds transferred to the Revolving Fund. Funding for the 
2012 edition of the U.S. Code is not included in our requirements for 
fiscal year 2014.
    Salaries and Expenses Appropriation of the Superintendent of 
Documents.--We are requesting $35.8 million for this account. This 
amount represents an increase of about $600,000, or 1.7 percent, 
compared with the funding provided in Public Law 112-75. It represents 
an increase in the level of funding provided by Public Law 113-6: $4.3 
million over the pre-sequester level and $4.4 million over the post-
sequester level as determined under section 253(f)(2) of the BBEDCA.
    Our total requirements for fiscal year 2014 are projected to be 
$39.3 million. This includes $3.5 million in projects to upgrade and 
enhance the Integrated Library System ($2.1 million), development of 
the National Bibliographic Records Inventory ($700,000), and the second 
phase of an inventory and preservation process related to FDLP 
collections currently stored at GPO facilities ($700,000). There is 
approximately $3.3 million in remaining unexpended balances from the 
Salaries and Expenses Appropriation from fiscal year 2008. We will 
request authority to transfer these funds to the Revolving Fund to 
cover the majority of these project costs.
    With the transferred funds, the requested funding will cover 
mandatory pay and related cost increases of $266,000. Merit and other 
pay increases are included for 114 FTE's. In addition, the requested 
funding covers projected price level increases of $343,000, including 
ongoing systems maintenance and FDsys operating expenses.
    Revolving Fund.--We are requesting $12.9 million for this account, 
to remain available until expended, to fund essential investments in 
information technology development, digital equipment, and necessary 
facilities repair. This amount represents an increase of $12.4 million 
compared with the funding provided in Public Law 112-75. It also 
represents an increase in the level of funding provided by Public Law 
113-6: $8.9 million over the pre-sequester level and about the same 
amount over the post-sequester level as determined under section 
253(f)(2) of the BBEDCA.
    The request includes $7.4 million for information technology 
development, including $6.5 million to continue developing FDsys, 
$500,000 to modernize GPO's data center, and $415,000 for our Oracle 
business system improvements. FDsys provides digital information 
production and dissemination services for Congress, and GPO's IT 
systems support other GPO programs providing Congress with its 
information product needs. In addition, we are requesting $4 million to 
purchase and install a digital bindery line for congressional work, 
which yield future savings in plant production operations. We are also 
requesting approximately $1.5 million to continue with elevator repairs 
and renovate a rooftop training room that is currently leaking water 
onto recently renovated elevators.

            NATIONAL ACADEMY OF PUBLIC ADMINISTRATION STUDY

    As directed by Congress in the conference report accompanying the 
Legislative Branch Appropriations Act for Fiscal Year 2012 (Public Law 
112-74), the National Academy of Public Administration conducted a 
study on ``updating a review of GPO's operations and additional cost 
saving opportunities beyond what GPO has already instituted, if any.'' 
The Academy reported its findings to the Committees on Appropriations 
of the House of Representatives and the Senate and has released its 
report titled, Rebooting the Government Printing Office: Keeping 
America Informed in the Digital Age. We are pleased to see the report 
affirms that ``GPO's core mission of authenticating, preserving, and 
distributing Federal information remains critically important to 
American democracy'' in the digital age, and we think the report offers 
a number of thoughtful, useful recommendations to strengthen our 
business model for the future.
    Overseen by a panel of distinguished Academy fellows and conducted 
by a team of Academy professionals, the 10-month study involved 
extensive data analysis and review supplemented by interviews with GPO 
management, employees, and labor representatives as well as 
stakeholders from the congressional, Federal agency, library, and 
printing communities. The resulting report contains 27 findings and 15 
recommendations.
    The focus of the Academy's report is the need for GPO--and the rest 
of the Federal Government--to continue ``rebooting'' for the digital 
age. While pointing out that ``GPO's leaders have made considerable 
progress in transforming the agency into an efficient, future-oriented 
organization,'' and that the agency has ``expanded products and 
services for the digital age and made difficult decisions to ensure 
that revenues are in line with expenditures,'' the report makes 
recommendations designed to help position GPO and the Federal 
Government to continue meeting the challenges of an increasingly 
digital world.
    The Academy's report calls for GPO to ``serve as a critical player 
in the collaborative development of a Government-wide strategy'' for 
managing the lifecycle of Government information. To strengthen GPO for 
the future, it recommends that we continue offering an expanded set of 
services for the digital age, preserve the viability of the Federal 
depository library program, retain the production of executive branch 
printing, improve strategic and staffing planning, further consolidate 
operations, automate more agency functions, and related measures. The 
report also recommends exploring alternate funding models for digital 
products and services, expanding the sales of publications into new 
markets, consideration by Congress of allowing GPO to respond to State 
and local government requests for smart cards, and increasing our 
program of leasing underutilized GPO building space.
    The report's recommendations have been assigned to the responsible 
GPO business units for the development of plans for carrying them out. 
We are committed to our mission of Keeping America Informed and will 
continue to transform to meet the changing information needs of 
Congress, Federal agencies, and the public. Earlier this year, I sent a 
letter to the Academy thanking the panel of Academy fellows who oversaw 
the study and the Academy's professional staff for their thorough 
review of GPO's operations and the recommendations they have made to 
strengthen our mission and services.

                         GPO AND SEQUESTRATION

    Last August I designated a group of GPO managers to begin planning 
for the sequester, which at that time was scheduled for January 2013. 
Along with providing information to the Office of Management and Budget 
(OMB) to be made part of the President's report required by the 
Sequestration Transparency Act of 2013, they prepared options for 
spending reductions and other measures to offset the impact of the 
sequester on GPO resources and operations.
    Our sequester planning was initially based on the potential impact 
of a 5 percent sequester on our appropriated funding level as provided 
by Public Law 112-75, or $6.3 million. The resulting sequester on our 
appropriations totaled approximately $1.6 million, as computed under 
section 253(f)(2) of the BBEDCA.
    However, we remain deeply concerned that there could be significant 
reductions in revenue to our Revolving Fund if Federal agencies order 
less work from GPO as the result of the sequester's impact on their 
budgets. The full extent of this reduction is not known, though data 
for the fiscal year to date show that revenue from printing 
procurements is down by approximately 8 percent. We are also seeing a 
reduction in revenues in our plant production operations, which produce 
both agency and congressional work, of about 11 percent to date. (At 
the same time, income from our passport production operation has 
increased over the previous year, by about 25 percent, resulting in 
flat revenue for GPO overall the year to date compared with last year).
    To offset the effect of reduced revenue in agency printing 
procurement and plant printing operations, we have implemented freezes 
on hiring, overtime, performance awards, outside training, 
administrative travel, and maintenance not required for health or 
safety. We are also deferring selected technology and infrastructure 
development projects approved by the Joint Committee on Printing for 
fiscal year 2013. Based on financial data through the end of March, 
these steps appear to be working by reducing overhead costs while our 
revenues remain flat overall. However, if these actions prove to be 
insufficient to absorb the effects of reduced business from other 
agencies, we may be required to resort to furloughs. GPO's employees 
have been informed of this potential and both labor and management 
representatives have been negotiating on how furloughs would be carried 
out should they be needed.
    Chairwoman Shaheen, Ranking Member Hoeven, and members of the 
subcommittee, thank you again for inviting me to be here today. This 
concludes my prepared statement, and I am prepared to answer any 
questions you may have.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, DIRECTOR
    Senator Shaheen. Dr. Elmendorf.
    Dr. Elmendorf. Thank you, Madam Chair and Senator Hoeven.
    As you know, the Congressional Budget Office's (CBO) 
mission is to provide the Congress with objective, and 
nonpartisan, budget and economic analysis. We are proud of our 
success in doing that for the past 38 years, and we are 
continually striving to do even better.
    Our final appropriation for this fiscal year including the 
effective sequestration is 6-percent less than the funding 
under the initial continuing resolution, and we are adjusting 
to that reduced funding by continuing not to replace many of 
our colleagues who leave, and by dropping or deferring other 
spending. With those cuts, we are narrowly avoiding furloughs 
this year.
    But our current staffing, about 228 full-time equivalents 
(FTEs), is smaller than we have experienced in many years, and 
10 percent smaller than the 254 FTEs that were envisioned in 
our fiscal year 2010 appropriation. As a result, it is becoming 
harder to respond to the Congress' requests for estimates and 
analyses.
    Our budget calls for a return to the 235 FTEs that were 
funded between 2004 and 2008. If we receive the funding we 
requested, we would now plan to build back up to 235 FTEs by 
the end of 2014, but because we would be starting the year at a 
lower point due to this year's cuts, we would average 230 FTEs 
during the year. That approach would generate savings of nearly 
$1 million relative to our request. At the same time, we are 
deferring more than $1 million of important IT purchases and 
other items this year. We would like to use the savings in pay 
to catch up on those purchases.
    Altogether, then, if we receive the funding we requested, 
we would end fiscal year 2014 with the same staffing level 
anticipated in our request and with little deferred information 
technology (IT) or other needs.
    However, we recognize that our requested funding now 
represents a 10-percent increase relative to the enacted 
funding this year, including the effects of sequestration. And 
given the budget constraints, you might choose to provide less 
funding than we requested.
    So following the CBO tradition of offering the Congress a 
variety of policy options, allow me to summarize the effects of 
some smaller amounts you might consider.
    If you provided roughly $1 million less than we requested, 
we would still aim to build back up to 235 FTEs by year-end, 
but we would not catch up on all the deferred IT purchases. 
That is not a strategy we could pursue indefinitely, because 
our work is so dependent on computer models and analysis of 
large datasets.
    Alternatively, you might choose to provide $2 million less 
than we requested, which would be $43.7 million or 5 percent 
more than this year's funding. We would aim for an average, 
then, of 225 FTEs next year, which is smaller than CBO has been 
in at least a dozen years. We would also need to continue to 
defer some purchases of IT equipment and other items. And if 
you were to choose the less funding, then we would need to 
shrink further.
    I think the key question for this subcommittee, and 
ultimately the Congress as a whole, is how much budget and 
economic analysis you want to receive from us.
    In 2008, the Appropriations Committee had agreed with a 
plan put forward by CBO in the budget committees to increase 
CBO staffing from the traditional level of 235 FTEs. That step 
up was intended primarily to enhance our ability to analyze 
potential changes in healthcare policy while maintaining our 
capacity to provide cost estimates and other reports on other 
topics.
    That expansion of staffing that was set in motion has now 
been entirely reversed. Even though there has been no let up in 
requests for our work on policies regarding healthcare or other 
topics. As a result, despite very hard work by our dedicated 
staff, our footfall is considerably short of congressional 
requests.
    A sustained drop in staffing less than the traditional 
level of 235 FTEs would inevitably reduce the estimates and 
other analyses we could provide.
    Depending on the size of the staffing cuts, we would 
probably make several changes that are listed in our written 
testimony including, one, limiting the number of alternative 
legislative proposals for which estimates are provided to 
committee staff on a timely basis. We produce maybe 10 times as 
many informal estimates as committees are working as we do the 
formal, written estimates when committees are reporting 
legislation. Our ability to produce that number of alternative 
estimates for alternative proposals would be greatly reduced if 
our staffing is cut.
    Second, we would scale back our analysis of the long term 
effects of policies. Third, we would delay our modeling and 
analysis of alternative approaches to controlling Federal 
healthcare spending. And fourth, we would have to limit our 
analysis of the macro economic effects of changes in fiscal 
policy including the effects of tax reform and different ways 
of reducing Federal debt.
    In sum, CBO has been shrinking for the past 3 years and we 
now have noticeably less capacity to serve the Congress than we 
had in 2010. At the same time, the need of Congress for 
estimates and analysis by CBO, and the complexity of the 
analyses required, are probably greater now than ever.

                           PREPARED STATEMENT

    On behalf of all of us at CBO, we very much appreciate your 
support of our work in this difficult budget environment. And 
we look forward to continuing to serve the Congress as it 
addresses the critical challenges facing our country.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Douglas W. Elmendorf

    Madam Chair, Senator Hoeven, and members of the subcommittee, thank 
you for the opportunity to present the Congressional Budget Office's 
(CBO's) budget request.
    CBO requests an appropriation of $45.7 million for fiscal year 
2014. That amount represents an increase of $1.6 million, or 3.7 
percent, from the $44.1 million (on an annualized basis) that was 
provided to CBO under the continuing resolution in place during the 
first part of fiscal year 2013. It represents a larger increase--of 
about 10 percent--relative to CBO's budget of $41.5 million after final 
appropriations for fiscal year 2013 were enacted and the sequestration 
was implemented.
    The increase would enable CBO to support 235 full-time-equivalent 
positions (FTEs), which would be roughly 7 percent fewer than the 254 
FTEs funded in 2010 and in line with the number of FTEs funded between 
2004 and 2008. The increase also would enable the agency to catch up on 
critical purchases of information technology (IT) and other items that 
are being deferred this year.
    The proposed budget represents the amount that CBO believes will be 
necessary to avoid a further reduction in the information and analysis 
that the agency provides to the Congress. If CBO received a smaller 
amount of funding for 2014, the agency would need to reduce its number 
of FTEs further. For example, an appropriation of $42.3 million--2 
percent above this year's funding--would support only about 225 FTEs, 
on average, for the year, even if the agency continued to defer some 
needed IT investments and other items. Reaching that number of FTEs, on 
average, for the year would require CBO to shrink to about 221 FTEs by 
the end of that year.
    Funding in 2014 at the $41.5 million now available for this year 
would require a much more drastic staffing reduction, to about 213 by 
the end of that year--even with the continued deferral of some needed 
purchases of IT and other items. That number is far smaller than the 
number of FTEs being supported by the same funding this year because 
costs per FTE are increasing and some purchases of IT and other items 
cannot be put off for another year. Although CBO would continue to make 
every effort to serve the Congress as effectively as possible, cuts in 
staffing of that sort would unavoidably diminish the number and extent 
of estimates and other analyses that the agency could produce.

      CBO'S FUNDING HISTORY AND ITS EFFECTS ON STAFFING AND OUTPUT

    In a typical year, about 91 percent of CBO's budget represents 
compensation; another 6 percent is for IT equipment and services; and 
the remaining 3 percent goes to purchases of data, training, office 
supplies, and other items. As a result, the contours of CBO's budget 
and the staffing levels of the agency have been and will continue to be 
closely linked.
    Between fiscal years 2002 and 2008, the number of authorized FTEs 
at CBO held between 232 and 235. During that period, CBO's budget 
generally rose slowly, as Federal employees received salary increases 
and the cost of Federal benefits increased.
    For fiscal years 2009 and 2010, the Congress approved larger 
increases in CBO's budget to support a step-up in staffing. That step-
up was intended primarily to increase the agency's ability to analyze 
potential changes in Federal healthcare policy while maintaining its 
capacity to provide cost estimates and reports on other topics. In 
addition, some Members of Congress proposed a 2-year supplemental 
appropriation for CBO in 2009, which the Congress approved. All told, 
CBO had sufficient funding for 254 FTEs in 2010.
    However, constraints on CBO's funding (and on discretionary 
appropriations as a whole) caused the agency's staffing to shrink in 
fiscal years 2011 through 2013. The agency's appropriation for 2011 was 
roughly in line with the total amount available to the agency for 2010, 
and the appropriation for 2012 represented a 6 percent cut from the 
2011 amount. The agency's appropriation for 2013, after the 
sequestration, represents a further 5 percent decrease relative to the 
funding in 2012.
    Thus, CBO's funding in 2013--$41 .5 million--is about 11 percent 
below CBO's total funding in 2010, which was $46.9 million. That cut, 
combined with small increases in average pay and rising costs of 
benefits and other items during the past 3 years, has required a drop 
in the number of FTEs to below the level seen before the step-up in 
2009 as well as the deferral of critical purchases of IT equipment and 
services and other things.
    CBO's temporarily higher staffing in 2009 through 2012 enabled the 
agency to engage in analyses of particularly complex issues and to 
provide substantially more estimates and other analyses to the 
Congress. Among the accomplishments that were facilitated by the 
increase in staffing were the following:
  --Significant expansion of healthcare analysis, including greatly 
        enhancing the agency's cutting-edge model of the Nation's 
        health insurance system and estimating the effects of dozens of 
        proposals to fundamentally change that system;
  --Substantial enhancement of financial analysis, including making 
        estimates of the budgetary effects of the Troubled Asset Relief 
        Program, the activities of Fannie Mae and Freddie Mac, and (on 
        a fair-value basis) all major Federal credit programs;
  --Considerable improvement in modeling the economic effects of fiscal 
        policy, including reviewing key parameters of the agency's 
        models with outside experts and producing numerous estimates of 
        the effects of proposed policy changes;
  --Issuance of several reports with options for changing transfer 
        programs--including Disability Insurance, Supplemental Security 
        Income, the Supplemental Nutrition Assistance Program, and 
        unemployment insurance--and analysis of the effects of taxes 
        and transfers on people's incentives to work;
  --Significant gains in the transparency of CBO's analysis, including 
        reports on the agency's estimates regarding oil and gas 
        leasing, the compensation of Federal workers, the impact of tax 
        rates on the labor supply, and the effects of healthcare 
        subsidies; and
  --Continued high quality of the agency's analysis of numerous other 
        topics, including economic and budget projections, hundreds of 
        formal cost estimates, and thousands of informal cost 
        estimates.

   CBO'S FUNDING REQUEST AND ITS CONSEQUENCES FOR STAFFING AND OUTPUT

    In fiscal year 2014, CBO will continue its mission of providing 
objective, insightful, timely, and clearly presented budgetary and 
economic information to the Congress. To fulfill that mission, CBO 
requests $45.7 million in funding--an increase of $1.6 million (3.7 
percent) from the $44.1 million (on an annualized basis) provided under 
the continuing resolution in place during the first half of fiscal year 
2013 and an increase of about 10 percent from CBO's 2013 funding after 
the sequestration. The requested amount would allow CBO to return to 
the number of FTEs authorized between 2004 and 2008, which is still 7 
percent below the peak in the authorized number reached in 2010. That 
amount of funding would also allow the agency to catch up on purchases 
of IT and other items that are being deferred this year, although 
spending on nonpay items would still be 15 percent less than the agency 
spent, on average, from 2008 through 2012.
    The requested amount of funding would allow CBO to provide the 
following estimates and other analyses to the Congress:
  --Reports on the economic and budget outlook, analyses of the 
        President's budget, long-term budget projections, and options 
        for reducing budget deficits;
  --Roughly 500 formal cost estimates, most of which will include not 
        only estimates of Federal costs but also assessments of the 
        cost of mandates imposed on State, local, and tribal 
        governments or the private sector;
  --Thousands of preliminary, informal cost estimates, the demand for 
        which is very high as committees seek to have a clearer picture 
        of the budgetary impact of proposals and variants of proposals 
        before they formally consider legislation;
  --About 150 scorekeeping tabulations, including account-level detail 
        for individual appropriation acts at all stages of the 
        legislative process and summary tables showing the status of 
        discretionary appropriations (by appropriations subcommittee) 
        and running totals on a year-to-date basis; and
  --Roughly 80 analytical reports and other publications--generally 
        required by law or prepared in response to requests from the 
        Chairmen and Ranking Members of key committees--on a broad 
        range of topics, including healthcare, policies for increasing 
        economic growth and employment, energy policy, changes in 
        benefit programs, infrastructure, defense policy, and the 
        Government's role in the financial system.\1\
---------------------------------------------------------------------------
    \1\ In each of the past few years, CBO has produced nearly 100 
analytical reports and other publications. However, the cutback in 
staffing that has occurred since 2010 means that the agency expects to 
publish fewer reports in the future.
---------------------------------------------------------------------------
    Those products would be the result of very hard work by CBO's 
highly dedicated staff. Nevertheless, the agency expects that this 
anticipated volume of estimates and other analyses will fall 
considerably short of the number of congressional requests. The 
increase in CBO's staffing set in motion several years ago has now been 
completely reversed, and it would not be reinstituted under this budget 
request. Meanwhile, the demands on CBO have not declined: The enactment 
of major healthcare legislation in 2010 has been followed by a large 
number of other proposals for changes in Federal healthcare programs, 
and it has made the agency's analysis of many such proposals more 
complex. In addition, the slow recovery from the economic downturn has 
generated great interest in the agency's economic forecasts and in 
policies that might boost economic growth and employment in the near 
term and the longer term. Moreover, the surge in Federal debt and the 
high level of projected deficits have led to ongoing congressional 
efforts to enact fundamental changes in spending and tax policies, 
which have strained the agency's resources in many areas.
    As a result, even if the requested amount of funding is provided 
for fiscal year 2014, CBO expects that it will continue to be unable to 
analyze many legislative proposals that are sent to it by Members of 
Congress, to promptly complete all of the in-depth analyses of issues 
that are requested by committees, and to improve its modeling as much 
as would be desirable to capture the many channels through which 
legislative proposals can affect the Federal budget and the economy. 
CBO regularly consults with committees and congressional leadership to 
ensure that its limited resources are focused on the work that is of 
highest priority to the Congress.
    If the funding provided to CBO for 2014 fell short of the requested 
amount, then the agency's ability to satisfy congressional demands 
would be weakened further. For example, if CBO's appropriation for 2014 
equaled its funding for 2013, the agency would need to reduce its FTEs 
to about 220, on average, for the year. That number is smaller than 
what can be supported by that same funding this year because costs per 
FTE are increasing and some purchases of IT and other items cannot be 
deferred again in the coming year. Moreover, because the agency would 
begin the fiscal year with a larger number of FTEs, averaging 220 FTEs 
for the year would require cutting FTEs to about 213 by year-end. By 
comparison, the agency has had more than 225 FTEs in nearly every year 
since the mid-1990s. If the funding provided to CBO for 2014 was 
significantly less than the requested amount, the agency would become 
smaller than it has been for any sustained period in more than 15 
years.
    Although CBO would do its best to minimize the impact on the 
Congress of a drop in staffing, a further decline from the current 
level would inevitably lead to a reduction in the number and extent of 
estimates and other analyses that the agency could provide. Depending 
on future staffing levels, CBO, in consultation with the Congress, 
might need to make some or all of the following changes:
  --Scale back some regular products--by, for instance, producing the 
        long-term budget outlook less often than annually (and thereby 
        returning to the less frequent cycle that had been in place 
        before the past few years);
  --Limit further the number of alternative legislative proposals for 
        which estimates can be provided to committee staff on a timely 
        basis;
  --Limit the number of estimates of the long-term effects of policies, 
        especially the effects of changes in healthcare programs on the 
        budget and on beneficiaries;
  --Delay estimates of alternative approaches to controlling Federal 
        healthcare spending, including the effects of restructuring 
        payments to providers in the fee-for-service portion of 
        Medicare and of converting Medicare to a defined-contribution 
        system;
  --Defer indefinitely analysis that the agency has just begun of the 
        effects of changes in payments to healthcare providers--under 
        current law and legislative proposals--on the amount and nature 
        of health care that is received;
  --Delay or limit estimates of the cost of Federal credit programs on 
        a fair-value basis;
  --Limit analysis of the macroeconomic effects of changes in fiscal 
        policy, including tax reform and alternative ways of reducing 
        projected Federal debt;
  --Delay improvements in the agency's estimates of the effects of tax 
        and transfer programs on people's participation in the labor 
        force and on earnings;
  --Defer indefinitely analysis of some key international economic 
        issues, such as the implications that globalization and 
        expanding foreign economies have for U.S. policy;
  --Limit analysis of the implications of cuts in the defense budget 
        for the capabilities of the armed forces;
  --Delay analysis of policies to promote long-term economic growth and 
        income mobility; and
  --Limit opportunities for training and other professional development 
        for CBO staff, which would hinder the agency's ability to 
        attract and retain a highly skilled workforce.
    Moreover, if CBO continued to be forced to reduce its staffing 
quickly, then the agency might have some noticeable weak spots in its 
basic capabilities during the next few years. Some key positions are 
already going unfilled, and additional losses through attrition would 
undoubtedly not line up well with the places where the agency could 
most afford diminished resources.
    The requested funds would be used as follows: $31.3 million for pay 
of personnel; $10.4 million for benefits of personnel; and $4 million 
for other purposes, to fund purchases of IT, data, training, and other 
items.
    In closing, I would like to thank the committee for the support it 
has provided CBO over many years, enabling the agency to carry out its 
responsibilities to provide budgetary and economic information to the 
Congress.

                       IMPACT OF LIMITED STAFFING

    Senator Shaheen. Thank you all, very much, for your 
testimony.
    I am going to begin with you, Mr. Dodaro. I want you to 
elaborate a little bit more on the comments you made about the 
inability to recruit people, and what the long-term impact is 
on GAO if you are not able to do that.
    Obviously, your recruiting has been affected by the 
reduction in resources--but are there other issues that you 
think also affect recruiting?
    Mr. Dodaro. GAO's main asset to the Congress is our 
dedicated people and great institutional knowledge, and an in-
depth knowledge of programs and Federal Government activities 
across the breadth of the Federal Government's 
responsibilities, from healthcare, to defense and environment, 
to transportation, et cetera. But it takes years to be able to 
build up that level of expertise.
    For example, we have had in the past a very robust entry 
level program that runs for 2 years. We rotate people around. 
They develop expertise. We attract very high caliber people. We 
have no problem recruiting top talent to come into the Federal 
Government and stay, and then advance through the organization, 
and we have not been able to do that.
    In the last 3 years, we have only been able to bring in a 
handful of people. We have had to truncate our internship 
program with major colleges and universities because we have 
not had positions to be able to do that. That was our main 
pipeline for hiring. We are trying to restart that now. It is 
difficult if you are out of the market for a while to be able 
to go back in and recruit on campus again.
    And then there has been, obviously, a lot of uncertainty. 
We have not had a budget at the beginning of a fiscal year for 
a long time. That creates a great number of problems in 
recruiting as well because other employers can make offers much 
earlier in the process than we are able to.
    Now, this is a particularly important problem for us right 
now because of the retirement of the Baby Boom generation and 
the people in GAO who are leaving. And right now, we have a 
real gap in our workforce of people that have experience 
between 16 and 25 years. We had a similar experience during the 
1990's when we were downsized 40 percent during that period, 
and we had a hard hiring freeze. We are still suffering the 
effects of that hiring freeze because we have this gap in our 
workforce.
    And then, of course, the people who have over 25 years of 
experience are all eligible to retire, and they are going to be 
leaving. And so that institutional knowledge is going to be 
going out the door, and we won't have a pipeline of junior 
staff to replace it. It will affect our ability to identify 
cost savings in other areas until we can do that.
    I am very concerned about that and as I mentioned to you 
before, I have a long tenure. My term goes to December 2025, 
and I want to make sure that we are as strong an organization 
then as we have been in the past. I want us to continue serving 
the Congress in helping to deal with a wide array of 
challenges: fiscal security and other challenges.

                 FINANCIAL BENEFITS OF INVESTING IN GAO

    Senator Shaheen. As you talk about the savings that you are 
able to recommend to Congress, do you have an average of how 
much you generally recommend in savings as you do various 
studies? And do you also know to what extent many of those 
recommendations are actually adopted?
    Mr. Dodaro. Actually, our track record of recommendations 
adopted is very good; it is about 80 percent over time.
    We generate, upon average, 2,000 new recommendations every 
year. Since 2002, the financial benefits as a result of 
implementing our recommendations have been over one-half 
trillion dollars and that is an average of about $45 billion a 
year. I mentioned that in 2012 the financial benefits were over 
$55 billion.
    For example, due to our recommendations, the administration 
canceled the Constellation program, which was a major space 
exploration program. We said they were not ready to do that.
    The Defense Department also wanted to extend tours of 
military personnel in South Korea and move their dependents 
over there with them. We said that is likely not a sustainable 
model over time. You need to do a business case. They did, 
decided not to extend the terms, and they avoided about a $3 
billion cost right off the bat.
    We made major recommendations that have been implemented to 
bring down Medicare Advantage costs, in particular, over time.
    So we have a lot of impact, and Congress right now is 
desperate for these type of recommendations in order to make 
targeted, smart cuts that are not going to have unintended 
consequences on people. And I think that is the main casualty.
    There is a risk to the GAO because of the challenges I've 
discussed to our succession planning. There is a risk to the 
Congress of not getting good analysis and specific 
recommendations to do things in a smart way, and there is a 
risk to the taxpayers that we are not providing the oversight 
over waste, fraud, and abuse across the Federal Government that 
people have come to rely on us for.
    Senator Shaheen. Thank you very much.
    Senator Hoeven.

                        MANAGING GAO'S WORKLOAD

    Senator Hoeven. Thank you, Madam Chairwoman.
    Mr. Dodaro, your request for fiscal year 2014 is about 
level with your 2013 enacted; about $100,000 difference, I 
think, two-hundredths of 1 percent, so basically about your 
enacted fiscal year 2013 level, it is about 5.4-percent more 
than your sequestered level.
    So talk in terms of your ability to meet the requests that 
you get--from Members, and the committees, and so forth--if you 
end up at the sequestered level, and if we get you back to, 
basically, the fiscal year 2013 enacted level, which is your 
request, which is 5.4 percent more than where you are now.
    Mr. Dodaro. On average over the years, we get anywhere from 
900 to 1,100 requests.
    I have been working very hard over the past 2 to 3 years 
because of the reductions in our budget to work with all the 
chairs and ranking members of all the standing committees of 
Congress. We do work for virtually all the standing committees 
to prioritize those requests, about 60 percent of their 
subcommittees, and I have told them I am not going to keep 
doing the same level of requests because it will jeopardize the 
quality of our work, and I will not jeopardize the quality of 
our work. It is not fair to the Congress. It is not fair to the 
country or to our people in GAO.
    So the numbers of requests have come down. We are, on 
average, about 925 now where we had been in the past 5 years 
around 1,080. So that is about 150 fewer requests that we are 
able to take on, and the ones that we are able to take on, 
sometimes they are delayed. We are not able to get to them as 
fast as I would like to get to these requests. Some of these 
are really serious problems and when something happens in the 
external environment, we are always brought in to review the 
problem and then we have to juggle the requests and the 
priorities.
    So we have tried to trim back the level of requests. What 
we do take on, we try to do in a quality manner and try to 
deliver on-time the way we have promised. We are so tied in 
with the congressional schedule, and for decisionmaking and 
hearings, that it is really important for us to hit those 
marks.
    The other thing I have tried to do, Senators, is to do one 
body of work to meet multiple committee needs, and to work in a 
very open manner. As a result, our work is either mandated by 
committee report, conference report, or in law, or by request. 
More than 60 percent of what we do now is done on a bipartisan 
basis, and done for multiple committees, so I have tried to do 
that too to manage the workload in this environment.
    I want to make sure. My goal is to work on the most 
important national issues and the Congress' highest priorities, 
and things that will have a good return on the investment that 
people make in us.
    Senator Hoeven. So what I pick up from that is if you end 
up at the lower level, you may be able to do it in the range of 
925 requests versus if you are able to go back to the 2013 
enacted level, you may be able to do more like 1,050 requests.
    Mr. Dodaro. Yes.
    Senator Hoeven. Give or take.
    Mr. Dodaro. That's about right.
    Senator Hoeven. Depending.
    Mr. Dodaro. That is about right and the requests may vary. 
I mean, one request can be a very targeted study. It could take 
us a couple of months. Another could be multiple reports over a 
period of time, so they are not all equal in terms of the 
numbers of requests.
    Senator Hoeven. Absolutely, but over a universe of roughly 
900 to 1,000 that probably evens out----
    Mr. Dodaro. Yes.
    Senator Hoeven [continuing]. In some kind of general sense.
    Mr. Dodaro. No, your statement is right. I just wanted to 
caveat it.
    Senator Hoeven. How do you prioritize the requests? Is it 
just chronological? But then, as you say, there are different 
priorities. How do you do that?
    Mr. Dodaro. Yes, there are two ways. Priority one are 
requests that the Congress passes in a law. It is in a statute, 
``You should do this study,'' or, ``Audit the consolidated 
financial statements of the Federal Government every year,'' or 
in a conference or a committee report. Those are priority one 
because either the whole Congress has asked us to do the work 
or a whole committee has asked us to do the work.
    Priority two, are requests from chairs and ranking members. 
Both have equal priority and by law, we are to respond to 
requests from committees.
    Priority three are requests from individual Members of 
Congress. We have not been able to do a request from an 
individual Member of Congress for probably a decade and maybe 
more.
    So right now, what is in the queue are requests from 
committees, both chairs and ranking members. If a Member wants 
a request, they have to get a committee to sponsor it as a 
request to get into the queue, and that happens sometimes.
    But then, we allocate our resources across the Government, 
depending upon where the major dollars are, where the big 
issues are. And then we work with those committees, for 
example, the Armed Services Committees to prioritize what we do 
in the defense area. And then we work with Ways and Means, and 
Senate Finance and Health, Education, Labor and Pensions, just 
as an example of the healthcare area. So we work with 
committees on the prioritization within those areas.
    Senator Hoeven. If it is in statute, does it have a higher 
priority than----
    Mr. Dodaro. Yes.
    Senator Hoeven [continuing]. Vis-a-vis the committee or 
subcommittee request?
    Mr. Dodaro. Yes.
    Senator Hoeven. That is required. That is first. You have 
to do that and then you take the committee/subcommittees as you 
are able to.
    Mr. Dodaro. That is correct.
    Senator Hoeven. But it is not purely chronological
    Mr. Dodaro. No.

                     RELIEF FROM STATUTORY MANDATES

    Senator Hoeven. Then you do have some discretion in terms 
of priority of a project based on how imminent it is or how 
significant it is. Is that----
    Mr. Dodaro. Yes, and whether we have the proper staff 
available. In some cases, our expertise is limited in certain 
areas and people have to become available.
    So we have flexibility, but we continuously work with the 
committees to say, ``If a new issue comes up, what do you want 
us to postpone?'' And then we have a dialogue about how to do 
that.
    We also track every bill that is introduced every week in 
the Congress with a potential new mandate for GAO. Virtually 
every week there are several bills, sometimes dozens, 
introduced that have requirements for GAO and if a mandate does 
not make sense or we have already done something similar, we 
outreach right away to the committees to express our concerns. 
We also go through existing requests and mandates and identify 
ones that have outlived their usefulness or are not, in our 
opinion, good use of our resources.
    Last year, the Congress relieved us of about 16 of those 
mandates. We have identified another 20-25 right now that we 
are going to propose to the various committees in this Congress 
to try to eliminate some of those mandates as well. So we work 
on that, too, Senator.
    I am sorry. You were going to ask me something else.
    Senator Hoeven. Well, Madam Chairwoman, if I may, just to 
follow up on that.
    Yes, I was going to ask about that. Are there some things 
that we can eliminate? I was going to come back to that in the 
second round, but just finish this point. If you have to adjust 
the number of requests you can fulfill, then is there a certain 
timeline on these projects that you have to factor in, because 
that is going to affect how many you can do, too, right?
    Mr. Dodaro. Right.

              BALANCING PRIORITIES AND COMPETING DEADLINES

    Senator Hoeven. If you are doing longer or shorter 
timelines that makes a difference.
    So how do you make sure you still meet a certain timeline? 
Do you just reduce the number of projects that you take on?
    Mr. Dodaro. Yes, basically we do that or we do the work in 
phases. What is happening now, and I want to keep an eye on 
this, we are agreeing to do the work in phases in some areas 
where we will give the Congress an installment on some 
information. And then if it is going to take us longer to get 
access to information, or we have to do some modeling, or a 
complex methodology, we will do that later.
    Now, the thing I am concerned about is that usually it is 
best to do everything at once to make sure the entire work is 
put in context properly and balanced over time. So I am going 
to keep an eye on this process to make sure that that doesn't 
become a problem. We are trying to be responsive and deal with 
the very issue you are talking about in terms of the timeline, 
but it could have some unintended consequences. So I am going 
to watch it carefully.
    But basically, yes, we have to adjust the timeframes all 
the time on these engagements.
    Senator Hoeven. Thank you.
    Senator Shaheen. I want to follow up with just one question 
on that line of discussion because how many requests are 
currently in the pipeline that you think are going to be 
difficult to fulfill?
    Mr. Dodaro. I think we will fulfill all the ones in the 
pipeline that we have accepted. It just will be question of 
when.
    Senator Shaheen. So you don't have a backlog at this point.
    Mr. Dodaro. Yes we have a backlog. I thought you meant once 
we start them, are they going to be difficult to do. No, we 
always have a backlog and a queue of requests, and it varies by 
area, for example healthcare versus defense.
    And some committees, for example, the Armed Services 
Committee, always put theirs in the authorization bills or the 
appropriation bills. Other committees go through the request 
route. So it varies. We have different patterns working with 
different committees, but there is always a queue.
    Now, if I think a request is going to be inappropriate for 
us or just not feasible to do, then I will talk with the 
committees and the Members upfront. We don't accept everything 
that we are asked to do. And then, we do have a lot of latitude 
once we do accept something such as how we articulate the 
research questions so they are fair and balanced, and we 
produce objective, independent, nonpartisan work.
    Senator Shaheen. Thank you.

                        STATUS OF TELEWORK PILOT

    I am very interested in the telecommuting that the 
employees at GAO are now able to do in offices around the 
country.
    I wonder if you could talk a little bit about what you have 
seen as the result of GAO's telecommuting program.
    Mr. Dodaro. Yes. We have seen very positive results thus 
far. We have done it on a pilot basis starting out with two 
offices, Boston and San Francisco. We have since added a few 
more offices. We are not complete with all the field offices 
yet, but we are doing rolling evaluations of it from several 
different standpoints.
    I asked to evaluate this pilot as if we were looking at 
another agency to make sure that we are producing as before. We 
have a ``no harm provision'' that the telework pilot has to at 
least maintain and enhance our quality, and not affect our 
productivity.
    And so far, when we review our telework efforts, we have 
independent people review the report produced by staff 
participating in the telework pilot, and they give it a quality 
score. So far those quality scores have been maintained. Staff 
are very pleased with the flexibility that they have been able 
to experience through telework.
    We will save $1.2 million this year in rental costs in the 
field where the rental costs were going up considerably. We 
anticipate we will save another $.9 million next year. We will 
have about $2 million savings on a recurring basis going 
forward, which reduces our fixed costs.
    Now, one of the things I also wanted to focus on, since we 
have not had a lot of new hires recently, is how we introduce 
new hires into the organization in this telework environment. 
We are working through how to make sure that we properly train 
them before they are able to take full advantage of this 
flexibility.
    So far, the results have been most encouraging. I am very 
pleased. But we are keeping a careful eye on it.
    Senator Shaheen. Do you think this is a model that might be 
of use in other areas of the Federal Government?
    Mr. Dodaro. Well, some agencies have already done this. The 
Patent and Trademark Office, for example, has done it. It 
depends on the nature of the work that you are doing and 
whether it lends itself to that.
    Senator Shaheen. Sure.
    Mr. Dodaro. We will provide the results of our work and see 
if other people would want to do it. I don't know, for example, 
whether the inspectors general would be interested in this. I 
am meeting with them, tomorrow. We coordinate our activities 
and have a meeting once a year, so I will mention what we are 
doing. I know some of them have been interested in it in the 
past. It depends on the nature of the work.
    Communications devices have also helped to make telework 
possible. One of the reasons our travel costs are down 40 
percent is because we have mandated funding reductions. 
However, we are using videoconferencing desktop to desktop now 
with the telework arrangements which has also helped reduct 
costs, and we have even given speeches that way remotely.
    And so, it really helps us be more efficient instead of 
spending time on a plane. I know a lot of you travel a lot on a 
plane. You know how much time you waste there. So telework is 
helping us also reduce travel. It is also reducing our transit 
benefit payments because our staff are not using--transit as 
frequency when teleworking.
    So in addition to saving rental costs, there are other 
costs savings, as well as addressing the environmental concerns 
and related issues. It was right for us to do this telework 
pilot. It really helps retention of our workforce. We need to 
make sure we keep the good people that we have, so we build 
that institutional knowledge. This is one way to do that.
    Senator Shaheen. You talked about evaluating how the 
telecommuting program is working, but when you put it in place, 
were there particular accountability measures that you 
established for people who were working within the program so 
that it helped people to continue to be productive?
    Mr. Dodaro. Yes, and we have also instituted a new 
performance management system this year as well, which focuses 
a lot more on expectation setting upfront, evaluation and 
constructive feedback. It is all based upon developing the 
person over a period of time. So we have a real excellent 
training program.
    But for telework, our staff have to sign agreements 
describing their telework arrangement, and we have encouraged 
the supervisors to continue to work closely with them.
    One telling point is we also ask other people who are 
involved in the engagement whether it has had any impact. And 
some people got a form for evaluation, and they said, ``Well, 
there is nobody teleworking on our job.'' And we said, ``Well, 
yes, there is.'' I mean, they did not even notice it because 
when we work with the field office----
    Senator Shaheen. I am not sure if that is a good thing or a 
bad thing, though.
    Mr. Dodaro. In our view, it is a good thing.
    Senator Shaheen. Yes.
    Mr. Dodaro. But our people in headquarters and the field 
offices have worked together all along, so people have worked 
remotely that way.
    Senator Shaheen. Sure.
    Mr. Dodaro. We put teams together that have staff from 
multiple field offices on them. We have a very good staffing 
process where we bring the right people to bear on each 
assignment, regardless of where they are. I am pleased so far 
with it.
    Senator Shaheen. Good. Thank you.
    Senator Hoeven.

                        ABILITY TO MEET CASELOAD

    Senator Hoeven. Thank you, Madam Chairwoman.
    Dr. Elmendorf, I would ask you kind of the same line of 
questions that I asked Mr. Dodaro is if you stay at your 
current sequestered level versus going back to the fiscal year 
2013 level that is in your request, and I get that that 
basically changes your number of FTEs.
    Talk about your ability to meet caseloads, how that changes 
both in terms of number of cases and timelines, and 
prioritization.
    Dr. Elmendorf. Yes, Senator.
    So I think of maybe three types of work that we do. Some of 
the work we do is directly engaged with ongoing legislative 
activity in the Congress. Right now, the Senate Judiciary 
Committee is working on immigration legislation. That 
legislation has potentially significant budgetary and economic 
effects, and our team of people, budgeting analysts and 
economists are working along with that committee. So we had 
some people on the phone on a conference call Sunday afternoon 
to talk with Judiciary Committee staff about ways in which the 
legislation as it is being drafted seems not to actually 
implement the intent of the committee. So that work has to 
happen on the timetable in which the Senate is working on that 
legislation. And when legislation is moving like that, then it 
has our highest priority.
    The second set of work that we do, I think of as writing 
reports in response to requests generally from the Budget 
Committees, or the Finance, and the Ways and Means Committee, 
or the appropriators in which we are evaluating specific 
Government programs and presenting options for changes that 
Congress might make with discussion of the budgetary and other 
effects of those options.
    So for Senator Sessions, for example, who is the ranking 
member of the Senate Budget Committee, we are doing a set of 
reports on the means tested programs and ways in which they 
might be changed. And that work has to happen on a reasonably 
timely basis. Senator Sessions is very interested in proposing 
changes to those programs, and he wants this work done, but it 
does not have to happen on a week by week basis.
    The third set of work we do is very important in building 
modeling capacity, analytic capacity to tackle questions that 
are coming down the road but are not here yet. The modeling 
that we have done of the health insurance system in this 
country in the past few years, we are using a model that we 
started to build at CBO about a decade ago. And if that work 
had not started then, we would have been in no position in the 
past few years to do the analysis the Congress needed.
    So probably what we need to do is to carve out enough time 
from the current legislative activities to invest in the 
models, to invest in the knowledge on the parts of our staff 
members, to be ready when the legislative questions arise.
    In all of that work, we are looking to the budget 
committees, to the congressional leadership, and to the other 
key committees we work for to help set the priorities for us. 
Our job is to serve the Congress. We need to do things that you 
and your colleagues need, and we try to find that out through 
an ongoing engagement with key members and staff on these 
committees.
    Senator Hoeven. Number of cases and your ability to meet 
the demand if you are sequestered versus your request, which is 
essentially the fiscal year 2013 level, is provided.
    Dr. Elmendorf. So what we have to do under law is to 
produce an estimate of every piece of legislation reported out 
of a committee. So we did about 500 of those formal cost 
estimates last year.
    What we have done increasingly over time is to provide 
estimates for committees as they are developing legislation, 
and we have done thousands of those over the past year, maybe 
ten times as many as the formal estimates. That is one of the 
things that we would have to cut back on if our staffing were 
reduced.
    So, for example, one of our three agriculture program 
experts has retired. We have not replaced that person, so we 
have two terrific people, but we have less capacity to do those 
kinds of estimates than we did. And if our staffing level is 
higher, that increases the chance we could replace that person.
    We will still do an estimate of the farm bill as it comes 
out of committee, but we won't do as many estimates. We won't 
be able to do as many estimates of different proposals that the 
committee is wrestling with. So that is, I think, where one 
will see the cutbacks most directly.
    But there are other areas like our analysis of the long 
term effects of proposals. Most of our estimates focus on the 
next 10 years, but many Members of Congress are interested, as 
they should be, in the longer term effects of immigration 
legislation, of healthcare changes, and so on.
    We have built capacity in the past few years with this 
extra staffing. We have to do that longer term analysis, but we 
are going to lose that capacity. We won't lose it all the time. 
We will do it sometimes, but we will be able to do it much less 
often and much less comprehensively than if we had higher 
staffing.

                             OTHER REQUESTS

    Senator Hoeven. So you would not be able to do any requests 
for the junior Senator from Arkansas, is what you are saying, 
if I had to summarize.
    Dr. Elmendorf. We would do our very best for every Member 
of the Senate, but it is a hard problem. And we, like at GAO, 
we do very, very little now for individual Members of Congress. 
We work for the leadership and I am----
    Senator Hoeven. That is exactly, you are anticipating 
exactly where I want to go. I do not want to run over my time, 
but I want to come back and say okay. What does that mean for 
the informal requests that individual Members need in order to 
fashion good legislation? Incredibly important, it could be 
incredibly time consuming. It could also be an incredible waste 
of time if they are having you do stuff that will never see the 
light of day or never get anywhere.
    A real prioritization issue particularly when we have 
constrained resources. And my time is up, but I do want to come 
back.
    Senator Shaheen. Senator Boozman.
    Senator Boozman. Thank you all for being here. Appreciate 
all you do.
    I would like to remind the senior Senator from North 
Dakota, that the junior Senator from Arkansas has more 
seniority.
    Senator Hoeven. Not on this subcommittee.

                   REPORTS ON OVERLAP AND DUPLICATION

    Senator Boozman. That is true. Mr. Dodaro, I appreciate 
your commitment to helping the Federal Government get on a path 
of sustainability. I know that y'all are working really hard in 
that regard.
    I understand that through your three annual reports, GAO 
has identified a total of 162 areas with 380 actions that the 
executive branch and Congress could take to address duplication 
and potentially achieve tens of billions of dollars in savings. 
I also see from your testimony that only 65 of the actions have 
been addressed.
    What do you see as the biggest hurdle to implementing the 
GAO recommendations? And, how can we better assist you as a 
Congress ensuring the recommendations get done?
    Mr. Dodaro. There are really a couple of fundamental 
problems.
    One, because we were asked to look across the Federal 
Government, for example, we identified 82 teacher quality 
programs at 10 agencies; 160 housing programs, multiple 
agencies; more than 200 Scientific, Technical, Engineering, and 
Math programs. They cross multiple committee jurisdictions of 
the Congress, and they cross multiple agencies in the executive 
branch. And neither the executive branch nor, in many cases, 
the Congress is readily set up to make those kind of policy 
choices across a related set of programs.
    In addition to looking at programs, we looked at tax 
expenditures and what tax expenditures may be duplicative of 
Federal programs. We have recommended to the administration for 
years that they regularly review tax expenditures. In any 1 
year, you can have as much money as total discretionary 
spending in revenue forgone through the tax expenditures. They 
have yet to implement that recommendation.
    The second issue is that a lot of the areas we have 
identified have been within defense. For example, the service-
centric programs such as unmanned aircraft vehicles, electronic 
warfare, intelligence reconnaissance and surveillance. And each 
service has its own medical command. We have recommended in the 
past to consolidate those commands, and they could save $200 to 
$400 million a year. Getting changes through in the Defense 
Department is just difficult and requires a lot of oversight by 
the Congress. And so, I think we need more congressional 
oversight in these areas, ways to work across committee lines, 
and the administration needs to do more to develop proposals.
    I was encouraged to see that the President's budget 
submission has some proposals that are responsive to our 
reports. Of course, his submission came after we did our 
analysis. In the STEM area, there is a proposal to consolidate 
some programs. So it can be done.
    We point out this year that Congress and the Moving Ahead 
for Progress legislation consolidated more than 100 surface 
transportation programs. So it can be done, but it requires a 
lot of time, and attention, and follow up.
    Senator Boozman. Right.
    Mr. Dodaro. Now, we are willing to work with anybody in the 
Congress, any administration for that matter, to get these 
things accomplished.

                           DIGITAL AND PRINT

    Senator Boozman. And we appreciate that very much.
    Ms. Vance-Cooks, you have users that use, we are in a 
digital age now, digital and print, do you have any 
determination as to who is doing what, and if you are using 
your resources? Are you mixing your resources such that the, 
whichever one is being used the most, are you allocating more 
resources toward one or the other that matches up with the 
study? Does that make sense?
    Ms. Vance-Cooks. Yes, sir. It does make sense. You are 
asking me about the difference between print and digital, and 
which of our users are using----
    Senator Boozman. Yes, who is using which and----
    Ms. Vance-Cooks. That is right.
    We are very much aware of the fact that tangible print is 
declining. And as tangible print declines, there is a need for 
us to increase our online presence for digital. This is because 
society is changing.
    And because society is changing and they are demanding 
digital applications, it is very important for Congress and for 
GPO to assist Congress to make sure that the data that we 
provide on behalf of the Congress is online.
    This is why we have a digital system called FDsys which, as 
I mentioned earlier, has more than 800,000 titles. We are 
seeing a tremendous amount of interest in FDsys because of the 
downloads. We have about 37 million downloads per month. And 
since 2009, we have seen 500 million retrievals. That tells us 
that there is a market. That, in fact, there is an insatiable 
appetite for digital.
    Because of that, the budget that we have presented to you 
reflects the fact that we need to have more digital 
technologies so that we can respond to this demand.
    So the short answer is that as tangible declines, we will 
see the need for more and more online presence.
    Senator Boozman. Thank you.
    Thank you, Madam Chair, my time is up. The only other thing 
I would say is that in this era of having to make some cuts in 
this and that, the cuts also, people do not realize, the cuts 
also are to our staffs both at the committee level and at the 
level of our personal staffs in trying to do the business of 
where we are from.
    So I guess I feel very strongly that as we cut back, we are 
going to rely more and more on individuals like this, these 
types of agencies that really do a good job, and they relate 
well to the Congress, and are very, very helpful in us doing 
our tasks.
    So I think as we look at our budget, we really need to be 
careful about protecting the agencies, and making sure that 
they've got the resources that they can do to help us.
    Thank you.
    Senator Shaheen. I certainly agree with that, Senator 
Boozman.

                           GPO REVOLVING FUND

    Ms. Vance-Cooks, you have a revolving fund in GPO. Can you 
describe what that revolving fund is used for and what has been 
the effect of that account not being funded at the request 
level for the past several years? What has been the impact of 
delaying those funds?
    Ms. Vance-Cooks. Thank you.
    The revolving fund is primarily used for our capital 
investments. Those capital investments are critical for the 
future of GPO because those capital investments are used for 
digital transformation. They are used to ensure that our FDsys 
site is powerful and robust.
    In our fiscal year 2014 budget request, we have about $6.5 
million requested for FDsys, for investment in repository, 
search features, upgrades to software, hardware, and storage 
capacity. If we do not have the funds for that, eventually 
FDsys will become less robust and it will not reflect the needs 
of Congress, and it will not reflect what Congress has been 
doing, and has been legislating.
    We also need investment funds for equipment. We have 
equipment that is reaching obsolescence. Some of our equipment 
dates back to the late 1970's--early 1980's. When we have 
equipment that is that old, we run into problems of waste, 
inefficiency, and poor energy consumption.
    When we ask for a new piece of equipment, it is because we 
know that it will make us more efficient and much more 
productive. We have requested a new digital bindery line 
because of the fact that it will reduce our make-ready from 
1\1/2\ to 2 hours, to minutes. It will reduce our make-ready 
waste by 50 percent. It will reduce our rework because it is 
digital and it has quality controls that keep track of the work 
that is running through.
    The revolving fund is also used to pay for facility 
repairs. You have seen our building down the street. It is the 
big, red building. It is old, and it needs a lot of work. Roof 
repairs need to be completed, and the elevators need repair.
    So essentially, in the revolving fund, we have capital 
investments for equipment, capital investments for 
technological advances, and facility repair.
    Senator Shaheen. And what happens if this account is not 
funded again in fiscal year 2014?
    Ms. Vance-Cooks. If it is not funded, we will see our 
capital investments not be realized, which means that in the 
bindery we will continue work with equipment that is obsolete. 
This is going to make us extremely inefficient. If it is not 
funded in terms of FDsys, we are going to have a problem 
because it will not be as robust.
    We need to add content to FDsys. It needs to be valid. It 
needs to be legitimate. If we do not have the funds available 
for that----
    Senator Shaheen. When you say, ``We need to add content,'' 
what do you mean?

                            CONTENT ON FDSYS

    Ms. Vance-Cooks. We have to add content daily onto FDsys. 
When I was here last year, I talked about the fact that FDsys 
has 680,000 titles. Today, it has 800,000 titles. We are 
continuing to add the titles, but that takes time. That takes 
work. It takes people to ingest that content, to create the 
metadata for that content.
    We need to crawl through all the Websites to pull that 
content in and authenticate it. One of the market niches for 
FDsys is the fact that it is the only site that has 
authenticated information from all three branches of the 
Government. It reflects the Government. It reflects what the 
Government does.
    If we do not have the funding through the revolving fund, 
we cannot keep FDsys to be as robust as it needs to be. So if 
our requests are not funded there will be no new bindery 
equipment. FDsys cannot be upgraded, and we will not have the 
money to fix our buildings as we need to.
    Senator Shaheen. Thank you.

                       DATA CENTER MODERNIZATION

    I want to ask you elaborate on the data center 
modernization project because the budget request suggests that 
you used some of the funding in fiscal year 2013 to begin that 
project. But can you talk about what the total cost of the 
project is and what its status is?
    Ms. Vance-Cooks. Sure. The total cost of the project is 
$2.5 million. We actually have not used the $500,000 yet. We 
originally attempted to, but the Joint Committee on Printing 
(JCP) asked us to defer this project and to participate in the 
legislative branch data center study report, which is still 
ongoing, and we are waiting for the final recommendation.
    What we are doing now is trying to use some of our funds to 
get ahead of the game in the sense of conducting a preliminary 
estimate and assessment of what our requirements are, so that 
when the recommendations come back to us, we are ready.
    We need a data center modernization program because this is 
a strong IT risk. And we want to make sure that our data center 
follows the executive branch in terms of best practices. It is 
something that we definitely must pursue.
    Senator Shaheen. Who is setting up the legislative branch 
data center study report?
    Ms. Vance-Cooks. This is coming from the legislative branch 
area.
    Senator Shaheen. Who within the legislative branch, do you 
know?
    Ms. Vance-Cooks. It is on the House side.
    Senator Shaheen. Well, it is nice to know that it is not on 
the Senate side, so there is no need for us to know about it.
    Ms. Vance-Cooks. Excuse me. I am sorry. It is on the House 
side.
    Senator Shaheen. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairwoman.

                   INFORMAL OPINIONS AND METHODOLOGY

    Dr. Elmendorf, just to finish up. So on informal opinions 
and methodology, I want to get into both of these for just a 
minute.
    Are you in a position to provide that analysis so that you 
really can help members? Is there something you could do to 
make that more efficient so you are not wasting time, and I 
know that everyone has got a different view of what constitutes 
wasting time, and does that get into methodologies? So I am 
looking. Is there something that we can or should do in this 
area that is helpful and productive?
    Dr. Elmendorf. Senator, we help individual Members with 
their requests whenever we can, but given the number of those 
requests and the amount of staff that we have, we often fall 
short, and I am often in a position of apologizing to Members 
for not being able to analyze their proposals. I think that has 
a significant cost to the Congress.
    I think we focus on what the chairs and ranking members of 
the committees and their staff want to pursue because they are 
the ones who have the biggest influence on the legislative 
process. But, of course, there are lots of good ideas that come 
from people who are not chairs or ranking members of 
committees, and I worry that those ideas do not get a fair 
hearing, in a sense, because we cannot do analysis of them 
comparable to the analysis that we can do for proposals from 
the chairs or ranking member.
    I do not think there is an easy way around that problem 
even the 235 FTEs that we have requested are not enough to 
change that. I mean, 2005, and 2006, and 2007, and 2008 we were 
unable to serve individual Members as much as we wanted. The 
ramp up in staffing that was set in motion then was designed to 
give us a better chance of analyzing significant proposals in 
the healthcare area, as I mentioned. That has gone away. If we 
held to 235 people, we would still be very tightly constrained.
    My concern now is that falling below that level, which is 
where we are at this moment and where we will be unless you are 
able to support our request, that that will make it even harder 
for us to serve the chairs and ranking members of the 
committees. But even they will end up not having analysis of as 
many alternative proposals as they would like.
    What we do does not lend itself to economies in the 
production process in that way. I mean, we use, obviously, a 
fair amount of sophisticated IT equipment, but that is because 
we are trying to deal with large datasets with confidentiality 
requirements and so on. There is no real way to mechanize what 
we do to produce it in greater volume.
    So I do not think I know a solution to that problem. What 
we do is a labor-intensive business. Our budget is more than 90 
percent compensation for our analysts.

                 CHANGES IN METHODOLOGY OR TOOLS NEEDED

    Senator Hoeven. So there are not necessarily changes in 
either methodology you are required to utilize or in tools like 
IT that you need to use that would help you in terms of your 
budget and your workload.
    Dr. Elmendorf. I think of the IT tools as complements to 
our staff, not substitutes for them. Our staff members need 
sophisticated IT equipment, not because we care about having 
the latest, coolest thing, but because we are dealing with 
large datasets and complex models. So the analysts that we have 
need the IT equipment and services to support their work. It 
does not really take away. It does not alleviate burden on them 
in that sense.
    Now, in terms of the methodology that we use, the way we 
proceed in our work has been developed over a number of years 
in concert with the Budget Committees to serve the Congress 
most effectively. So the procedures we follow are procedures 
that have been developed in this process and we are always 
engaged in conversation with the Budget Committees about 
whether they think changes would be useful.
    The thing which is ours alone is the professional judgment 
about the way that, say, households and businesses would 
respond to changes in Government programs. That is very 
important, I think, that that responsibility for those 
decisions rests only with us.
    But in terms of the sorts of work we do, the timetable we 
do it on, the way it is presented, that is something that we 
tried to do what the Congress finds most useful and it evolves 
over time as the Congress' interests evolve.

                     DRIVEN BY THE BUDGET COMMITTEE

    Senator Hoeven. Driven largely by the Budget Committee's 
directives as to how to approach those things from a 
methodology perspective?
    Dr. Elmendorf. Yes, driven primarily by the Budget 
Committee.
    Senator Hoeven. Is there anything that you are doing, in 
your opinion or that you are required to do, that frankly is a 
waste of time, or at least a low priority? Or it would be 
really helpful to be looked at to say either, (a), maybe it 
doesn't need to be done, or (b), maybe somebody else ought to 
do it, or (c), maybe somebody else is doing it?
    Dr. Elmendorf. So there were a few items that were taken 
off of our to-do list through recent legislation.
    For example, we are now required to report less often on 
the economic effects of the American Recovery and Reinvestment 
Act of 2009. We are required to report less often on the cost 
of the Troubled Asset Relief Program. And those changes were 
made by the Congress in discussions with us, and I think those 
do save us some time that was not very useful for the Congress. 
But there are not a lot of things in that category.
    When we see something on the horizon that we think would 
not be helpful, or that we cannot do effectively, we 
communicate that very immediately to the committees and try to 
get out of that.
    I would say also on the coordination with other agencies, 
Gene and I talk, and our staffs talk. We interact with the 
folks at Congressional Research Service (CRS) as well to make 
sure that we are not duplicating work for the Congress, and I 
think we really are not. I think the work the GAO does in 
studying the implementation of Federal programs is a complement 
to the work that we do in helping you understand what the 
consequences would be of new legislation.
    So if there are areas where we are, we try to learn from 
each other. There are areas where people's expertise at GAO or 
CRS is useful to our folks, then we reach out to them for that 
expertise.
    I think in terms of the sort of work we actually do, the 
products we give to the Congress, I do not think there really 
is significant overlap.
    Senator Hoeven. Thank you.
    Senator Shaheen. Thank you.
    Senator Boozman.

                             BUDGET SYSTEMS

    Senator Boozman. Thank you, Madam Chair.
    Well, this has been a really helpful hearing. I have 
learned that if I need something done, I need to ask my ranking 
member or chair to ask for me.
    Could we save money by going to a more traditional 
accounting system, budget system that is not so complex?
    Dr. Elmendorf. That is a very good question, Senator.
    The Federal Government is a big and complex organization, 
and that is not surprising, I think, that its budget is big and 
numbers complex in construction.
    Senator Boozman. IBM, and Wal-Mart are big and complex.
    Dr. Elmendorf. And they have complex budget systems, 
different from the Federal Government's system. There are some 
specific sorts of changes that might be made to the Federal 
budget that we have evaluated over time.
    People have talked, for example, about whether there should 
be a capital budget, and we have done some work, and presented 
testimony to the Congress on that topic. We have not evaluated 
the entire budget system from the ground up, and I am not sure, 
to be honest, that that is something that would be better for 
us to do, or better to specifically engage GAO in, or for us to 
work together with them.
    Senator Boozman. It is fair to say, though, if you took the 
major corporations and looked at how they budgeted, they would 
be much more similar to each other than they would be to the 
Federal Government.
    Dr. Elmendorf. I think that is right, Senator, though I am 
not an expert at private accounting. But the Federal Government 
does play different roles, and the Federal Government has, in a 
sense, a board of directors of 535 people.
    So there are some important differences that probably 
should be reflected in the budget. We just have not done a 
careful comparison of private and public accounting, and ways 
in which they might be brought into greater harmony.

            HELPING THE CONGRESS UNDERSTAND THE CONSEQUENCES

    Senator Boozman. I am not trying to put you on the spot, 
and yet, I am a little bit. I guess that is a fair question to 
ask though, that we look at some of the complexity. There is 
just something about Government, and I am part of it, that 
makes things very, very complex at times.
    So how much, for each dollar that you get, how much do you 
return to the taxpayers as far as efficiency?
    Dr. Elmendorf. Well Senator, I think that particular way of 
framing the question is actually better directed at my 
colleague, Gene. What we do is to help the Congress understand 
the consequences----
    Senator Boozman. Right.
    Dr. Elmendorf [continuing]. Of different pieces of 
legislation that you are considering. Not so much, I think, a 
matter of efficiency, but whether legislation would meet----
    Senator Boozman. Right.
    Dr. Elmendorf [continuing]. The objective that you and your 
colleagues have. So we believe strongly the information we 
provide helps you make better informed choices whether to 
implement certain programs in some ways or not. But the measure 
of the effectiveness of that is really your sense of whether 
the programs you put in place are serving the country well.
    Senator Boozman. No, I agree. I guess what I am trying to 
say, and I think you would agree, there is a multiplier effect 
in the sense, if we give you a dollar and you use it 
efficiently, and try and give us good information, then we are 
saving the taxpayer by doing things more efficiently.
    How about you, Mr. Dodaro? For the dollars that we give 
you, what is the multiplier effect there?
    Mr. Dodaro. Last year, we returned in financial benefits 
$105 for every $1 invested in GAO.
    Senator Boozman. Good.
    Mr. Dodaro. That has been roughly constant over the last 
decade.

           BUDGETING AND ACCOUNTING IN THE FEDERAL GOVERNMENT

    On the question you asked Doug about the budgeting and the 
accounting process, I would make a couple of comments, if you 
are interested.
    Senator Boozman. Yes, Sir, very much.
    Mr. Dodaro. First, no corporation in America would separate 
their funding for their debt from their decisions that they 
make upfront, and the appropriations and revenue process. We 
have recommended that the Congress, at the time appropriation 
decisions are made, figure out how much revenue is going to 
cover the appropriation, how much they need to borrow, and make 
that decision right upfront.
    This bifurcated process we have right now does not make 
sense. We calculated that the debt ceiling discussion in 2011 
unnerved the markets so much, the Federal Government ended up 
paying $1.3 billion in additional interest costs because of the 
uncertainty around that situation. So that is number one.
    Number two, the Federal Government takes on so much more 
risk than any other company. For example, the flood insurance 
program right now is not actuarially sound. The Pension Benefit 
Guaranty Corporation steps in to help fund positions for 
companies that are bankrupt and they have a huge exposure right 
now.
    There are a lot more risk-based decisions that the 
Government makes that the companies would not touch. In fact, 
the Government is involved because many companies have decided 
it is not worth their while to get involved in some of these 
areas.
    And then you have situations on the accounting side, not 
the budget side, where the Federal Government did not have any 
requirements to have audited financial statements until 1996. 
It took us about 10 years to convince the Congress to put that 
requirement in place.
    So we operated, as a Nation, for close to a couple hundred 
years without accounting systems in place that were audited. So 
it is quite a situation.
    Now, it has been significantly rectified. About 21 out of 
the 24 major departments and agencies now can get a clean 
opinion, but the Defense Department is un-auditable, and they 
are the lion's share of the assets and half of the 
discretionary spending. No company would have started operation 
without an accounting system in place.
    Senator Boozman. Right.
    Mr. Dodaro. And so, those are some of the complexities.
    Senator Boozman. Good.
    Thank you, Madam Chair.
    Senator Shaheen. If we move to biennial budget systems, 
then we would at least have more time to look at the budget. I 
am not going to ask all of you to respond to that.

                       REDUCTIONS IN PAPER VOLUME

    I want to go back to you, Ms. Vance-Cooks, because I know 
that one of the things you all have done to address cost is to 
work to reduce the volume of paper generated for congressional 
offices. I know that we just recently made a determination that 
in the Senate chamber, we would put paper legislation only on 
the desks of those Senators who requested it.
    Can you talk about what other measures you are looking at 
to continue to move us toward a paperless system?
    Ms. Vance-Cooks. Yes. Back in 2011, we conducted a survey 
of congressional offices and asked them specifically 
pointblank, ``Do you need this particular publication?'' And 
the response was very positive and we reduced some of the 
publications, specifically the Congressional Record, by about 
18 percent.
    This is a new Congress and we intend to do that again 
within the next 90 days. We are going to conduct another 
survey. We too will then ask, ``Do you still need the paper?'' 
And the reason is because it is important for people to 
continually evaluate what their requirements are.
    I believe that GPO has a history of working very closely 
with the Congress to help them process that particular piece of 
information.
    If you look back in 1994 when we first went online with the 
Congressional Record, for example, we were printing about 
20,000 copies a day. Today, because we are now online, and 
because we work closely with the Congress, we now produce about 
2,700 copies per day. So we have that relationship and we have 
established ourselves as being an expert in helping the 
Congress to go towards a paperless environment.
    Again, as we reduce the tangible print, though, we will go 
online and there will, of course, be a cost associated with 
going online.

            NATIONAL ACADEMY OF PUBLIC ADMINISTRATION STUDY

    Senator Shaheen. In your testimony, you talked about the 
National Academy of Public Administration (NAPA) and their 
review of the GPO regarding the issue of privatization.
    I wonder if you could talk a little bit more about the 
recommendations that they made for GPO's continuing to be more 
efficient.
    Ms. Vance-Cooks. Sure. The first thing they said about 
privatization is that it would not work for the GPO. They also 
identified 3 major themes set against 15 recommendations.
    The first theme was to position the Federal Government for 
the digital age. The NAPA report recognized the fact that 
society, as I mentioned earlier, is moving toward digital, and 
the fact that Congress must move as well.
    The second theme talks about GPO and the fact that GPO 
should establish a strong foundation for a digital platform. A 
third theme talks about GPO moving toward the future. In some 
of those recommendations, I would like to give you some 
examples.
    One of them was that we should go ahead and develop an FDLP 
national plan. This is a plan for the Federal Depository 
Library Program. Our FDLP program currently covers about 1,200 
depository libraries across the United States. There are about 
25, on average, in each State. They serve millions of Americans 
in terms of providing permanent and public access.
    So they asked us to develop a national plan, and this 
happens to coincide with the fact that we had recently 
completed a State forecasting study where we asked the 
depository libraries, ``Where do you see yourselves going in 
the future? And how can we, as GPO, help you to get there?''
    Senator Shaheen. Can I just interrupt for a minute--I 
assume you are providing them with Federal documents?
    Ms. Vance-Cooks. That is correct.
    Senator Shaheen. How is that different from what the 
Library of Congress is doing?
    Ms. Vance-Cooks. When Congress or when an agency decides to 
print a document, we ride that particular order for extra 
copies. We then send those physical copies to the depository 
libraries. They are put on the shelves so that the American 
public can come in and access them. We also put it up on FDsys 
in terms of digital content. That is what we do with the 
depository libraries. In fact, the Library of Congress is a 
depository library.
    Now, what we are saying in terms of it being different from 
the Library of Congress. The Library of Congress does not 
distribute documents to Federal depository libraries. And 
again, these libraries are throughout the entire United States, 
about 1,200 of them.
    Another recommendation from NAPA has to do with our print 
procurement system. This is the area that is responsible for 
procuring orders, printing orders for the Federal agencies. 
They have asked us to take a look at an automated system, which 
we happen to agree with, and we just recently completed an RFI 
for this particular project.
    Another thing they asked us to do is to expand our 
strategic planning capabilities. They want us to handle more 
scenario planning. We are gratified to do that because we think 
that especially in this era of sequestration, it is important 
to know what-if. What if this happens, what do we do, because 
this is a time of uncertainty.
    If you look on our Web site, you will see that we not only 
have strategic plans set on a rolling 5-year basis, we also 
have them internally on our Intranet, we have business unit 
plans that are developed and support the major strategic plan.
    So those are three key initiatives that we have done with 
the recommendations.
    Senator Shaheen. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thanks, Madam Chairwoman.

                          REVISION OF MANDATES

    Mr. Dodaro, are the things you are doing that would be, in 
your opinion, could really save you money, time, and effort if 
you were not doing them? Are there things we should be trying 
to change or get rid of that you currently do?
    Mr. Dodaro. Could you repeat the question?
    Senator Hoeven. Are there tasks, are there things that you 
are assigned to do, you have to either do on a repetitive 
basis, on a recurring basis that we could perhaps use your time 
and research more efficiently if we changed it or eliminated 
it?
    Mr. Dodaro. Yes. There are at least 25 different statutes 
that we are in the process of identifying.
    First, ARRA, we were tasked with doing bimonthly reviews of 
the use of the money by State and local governments. Most of 
that money has been spent already. We do not need to continue 
to report on a regular basis.
    The Small Business Lending Fund, the inspector general for 
the TARP program is required to do bimonthly reviews. We are 
required to do the reviews. It does not make sense for both of 
us to do the reviews.
    The Congressional Award Foundation, which receives 
donations, no appropriated money. We are required to do a 
financial audit. They could hire a public accountant to do it; 
we do not have to do that audit. It is a small entity. Those 
are several examples of what we propose to change.
    Also, there is a 1970 law that requires us to notify every 
Member of Congress for every report that we issue. So now, we 
send everybody a postcard referring them to our Website. I 
mean, it is not necessary to do that since our Website lists 
all our reports. So those areas could be very helpful in 
relieving us.
    Senator Hoeven. What is the status of getting some of those 
things changed, then?
    Mr. Dodaro. We are in the process of working with the 
committees right now.
    Senator Hoeven. Okay. So you feel you are making good 
progress in those areas.
    Mr. Dodaro. Yes, people have been much more receptive. We 
tried this for years, but I tell you, once the budgets started 
coming down, people's receptivity got a little bit broader and 
more generous. And so, we appreciate that.
    What we will do is keep the Appropriations Committees 
apprised of our progress.
    Senator Hoeven. Thank you.
    Mr. Dodaro. The one that is within your jurisdiction is the 
Recovery Act, since that was created through the appropriations 
process. And the other ones, if we cannot get the committees of 
jurisdiction to be responsive, we will keep your committee 
apprised.
    Senator Hoeven. Right, if you would work with our staff to 
make sure we know where we can be helpful. And I think we will 
look at the Recovery Act and see if we cannot come up with 
something that makes more sense. And across the board with the 
other recommendations, the same thing, if we can be helpful.
    Mr. Dodaro. Yes, the last area example is the TARP program. 
In the TARP program, we had to report every 60 days from the 
onset of that program in October 2008, and most of that has 
unwound at this point, and we could go to more infrequent 
reporting there without losing any oversight opportunities.

              ELECTRONIC DOCKETING SYSTEM FOR BID PROTESTS

    Senator Hoeven. How about as far as awarding Federal 
contracts and handling big disputes? I see both in terms of the 
ability to use electronic filing versus paper filing, and then 
also actually to charge a fee. Where are you with that? What do 
we need to do?
    Mr. Dodaro. Yes, we need your help in giving us legislative 
authority to levy the fee and to collect, and then to use the 
fee, which would be used to maintain an electronic filing 
system.
    The situation here is that we hear bid protests. If anybody 
loses any Federal contract, they can come to the GAO and say, 
``We don't think the agency followed the process properly. We 
would like you to review it.'' And within 100 days, we have to 
review it, and render a decision on whether we sustain or 
upheld the protest.
    The number of cases has gone from 1,400 bid protest filings 
a few years ago, to now it is more than 2,400 bid protests. And 
we get 16,000 different e-mails annually providing materials 
for the protests. So it is overwhelming our e-mail system in 
GAO, and we need an electronic docketing system.
    Our proposal is to charge about $250 for the filing fee. It 
could either be an initial fee, or by each filing. That is 
compared to the District Court of Appeals where they charge 
$400 upfront. This would move the costs to the companies that 
are benefitting from this process and away from the American 
taxpayers using appropriated monies to support this process.
    We think it is a prudent thing to do and the money would 
only go for the electronic filing system.
    Senator Hoeven. What would the reaction of the companies 
that are making the bid protests, do you think they would 
welcome that as a way to make sure that they are getting the 
service or not?
    Mr. Dodaro. Well, they will get more access to the 
documents. So there is a benefit to them. I mean obviously, it 
does not cost them anything right now to be able to file the 
protest, but we do not think this minor fee would be a problem.
    In most cases, there are billions of dollars at stake in 
these contracts and I do not even know what decimal point I 
would put this at in terms of their overall costs for these 
protests.
    Senator Hoeven. Well, and particularly maybe if there was 
like a small business waiver or something that if some company 
felt it was a hardship that prevented them from making a----
    Mr. Dodaro. We could institute that. That is a good point. 
I mean, the small business aspect, we could take a look at that 
and make sure that----
    Senator Hoeven. Well, we have run into this on the 
Agriculture Committee with the Food and Drug Administration 
(FDA). I mean, the drug companies, they are more than willing 
to pay the fee if that can go toward them getting the service 
to address the research they need done in the approval process 
for their drugs.
    Mr. Dodaro. Yes.
    Senator Hoeven. So, if it is approached that way, this may 
be something that we could look at.
    Mr. Dodaro. Okay.
    Senator Hoeven. The companies would welcome, but I think we 
have to be careful with real small businesses.
    Mr. Dodaro. Yes, I agree with you on that. We will make 
sure that there are some protections in place. We don't want 
anybody not to do it just because of the fee issue. We do not 
think it will be an impediment for most companies. We are 
talking about the big defense contractors.
    Senator Hoeven. That is what I mean. A lot of them may 
welcome it, both the electronic docket for filing purposes, as 
well as a fee to know that they are going to get the service.
    Mr. Dodaro. Right. We could do some outreach to some of the 
companies and the associations, if you would like, to help 
build the case for support.
    Senator Hoeven. I think it would be good.
    Mr. Dodaro. Yes.
    Senator Hoeven. I think it might help.
    Mr. Dodaro. It is a good idea. We will do that. I did not 
want to do that without a signal from the Congress that, at 
least, you would be willing to entertain this going forward. 
But if you are willing to entertain it, then we will do that, 
and give you the results to the subcommittee.
    [The information follows:]

  FOLLOW-UP FROM HEARING REGARDING BID PROTEST FILING FEE TO PAY FOR 
                        ELECTRONIC FILING SYSTEM

    GAO has begun outreach to the procurement community on the proposed 
collection of a user filing fee in bid protests to pay for an 
electronic protest filing system. At a recent Government Contractors 
Forum of the Washington Metropolitan Area Corporate Counsel 
Association, Ralph White, the Managing Associate General Counsel for 
Procurement Law, introduced the proposal for a user filing fee to 
develop an electronic docketing system, outlining the benefits such a 
system could provide. Representatives of the group were receptive to 
the idea. Based on GAO's experience with the protest process, an 
electronic filing system will provide significant benefits to the 
parties. These benefits will include, instantaneous secure access to 
documents filed in particular protest through a readily accessible Web-
based portal, automatic agency notification of protest filings for the 
purpose of invoking the statutory stay of contract performance mandated 
by the Competition in Contracting Act, and increased transparency into 
the protest process for users, as well as the general public.
    We are also soliciting input from various representative 
procurement constituent organizations, including those representing 
small business interests. For example, we are reaching out to such 
organizations as the Professional Services Council, the National 
Association of Small Business Contractors, and the Bid Protest and 
Small Business Committees of the American Bar Association's Public 
Contract Law Section. We are also posting a letter on the PubKLaw 
Listserv, a widely-read source of information for the procurement 
community. We will explain the contemplated electronic filing system 
and solicit input on how a modest filing fee might impact small 
businesses, and how best to address any concerns in a fair and 
equitable manner.
    Additionally, we are reviewing various user fees charged by 
executive branch agencies, as well as those charged by other judicial 
forums. Based on our initial review, it appears that the U.S. Court of 
Federal Claims, which also hears challenges of the award of Federal 
contracts is most closely analogous to the GAO protest forum. The 
Court's filing fee is $400 and there is no exception for small 
businesses.
    If GAO is provided the authority, GAO will modify its regulations, 
through Notice and Comment with regard to the fee and its application 
in Bid Protests.

    Senator Shaheen. I just want to follow up because I think 
it is a very interesting idea. Can you do it by rule or would 
it require a legislative change?
    Mr. Dodaro. It requires legislation. We cannot spend any 
money that we generate without authorization from the Congress. 
And at GAO, we follow the rules.
    Senator Shaheen. Good.
    Senator Hoeven. If I could finish that up, I think that is 
a discussion you ought to have and come up with some different 
ideas that the companies would support in a representation of 
companies. I think that might help make the case if we are 
going to move forward with it.
    Mr. Dodaro. Okay. We will do that Senator.
    Mr. Hoeven. Some ideas.
    Mr. Dodaro. That is a good idea. Thank you for raising it.
    Senator Shaheen. Senator Boozman.

              EFFECT OF CONTINUING RESOLUTION ON PLANNING

    Senator Boozman. There was a comment about budget cycles 
and it would be interesting--you as head of the Congressional 
Budget Office--it would be interesting to know how the lack of 
a budget, the lack of your ability to know where your monies 
are going to be late into the year that you are operating in, 
how that affects your budget in the sense of being inefficient. 
And then also GAO, too, just those would be great case studies 
for us to better understand. And I know that it would be 
interesting to know what kind of savings there are in that 
sense.

                   CONTINUING RESOLUTION FRUSTRATIONS

    Can you comment on that?
    Dr. Elmendorf. Yes, Senator.
    Senator Boozman. Maybe share some of your frustrations in a 
continuing resolution.
    Dr. Elmendorf. Senator, it is a very serious problem in our 
ability to plan and operate our organization effectively that 
we do not know often until well into a fiscal year what our 
funding during that year will be. We are a very small agency.
    Senator Boozman. Right.
    Dr. Elmendorf. Much smaller, in fact, than either GPO or 
GAO. We are less than one-tenth the size of GAO. So our 
problems are on a very small scale relative to most of the rest 
of the Government. I can only imagine how complicated it is in 
larger organizations to operate effectively without knowing 
what the parameters are you are trying to work within.
    But for us, it is a very big deal. The hiring process, 
especially for many of the skilled economists and analysts we 
hire, cannot always happen overnight. We need to plan ahead, 
and if we do not know if we will have the funding, then we do 
not hire, then sometimes the funding will arrive, and it is 
hard for us, then, to actually at that point in the year to 
attract the people to do the work.
    And that has been particularly complicated the past few 
years as our budget has been shrinking, we have been trying to 
get smaller through attrition without having to do furloughs or 
layoffs, and we have managed that so far.
    But it has also been particularly challenging to decide 
what slots to fill, what slots to allow to leave empty without 
knowing where we are supposed to be in 6 or 12 months from now.
    Senator Boozman. It is just interesting. Again, as the 
Budget Office that you do, and again, a relatively small entity 
in the Government, but the problems it has.
    Dr. Elmendorf. Yes.

                      IMPACT OF BUDGET UNCERTAINTY

    Senator Boozman. Ms. Vance-Cooks, I know you have a similar 
problem in your agency, and again, I would assume it is not as 
efficient as you would like to be in the sense of not knowing 
what the budget is going to be until late in the year. And that 
has to impact you as far as decisionmaking, and maybe the 
ability to save money.
    Ms. Vance-Cooks. It is very difficult and it is very 
challenging to go halfway through the year and not have a 
budget, and not know, but it also requires significant 
strategic planning. And as I mentioned earlier, we have a 
strategic plan that we follow.
    In terms of the congressional printing, we print whatever 
the Congress asks us to print. So that is funded by the 
congressional printing and binding appropriation (CP&B), and it 
is a drawdown account.
    The biggest issue that we have in terms of planning for 
that is the fact that we use historical estimates, and that is 
based upon what history has dictated to us that we think will 
occur in the following year.
    In terms of the salaries and expenses appropriation (S&E), 
it is difficult to plan as well, but we definitely know that we 
need to provide services for the FDLP program. But it really 
causes a critical problem in terms of the uncertainty with the 
revolving fund because of the fact that we need the capital 
investment and we need the technological improvements. So it is 
difficult, yes.
    Senator Boozman. Mr. Dodaro.
    Mr. Dodaro. We did a study back in 2009 of a sample of 
Federal agencies on this very point. I would be happy to 
provide that to the subcommittee. It talked about difficulties 
particularly in contracting, and other decisions that had to be 
made. And I think, if my memory serves me right, out of the 
last 30 years, in all but 3 years, there have been continuing 
resolutions for some part of the Federal Government, if not all 
the Federal Government. And in one of those 3 years, there was 
a rescission that happened later, after the budget was approved 
upfront.
    [The information follows:]

    [Clerk's note.--GAO report title and number: Continuing 
Resolutions: Uncertainty Limited Management Options and 
Increased Workload in Selected Agencies. GAO-09-879, September 
24, 2009.]

    In running our own agency, I agree with Doug, I mean, it 
wreaks havoc with trying to hire the very best people because 
you are out of the market at the very time where the top talent 
is available. It is only through using this internship program 
that we have been able to circumvent that particular aspect of 
the process.
    It creates a lot of uncertainty in the decisions that are 
made, both anxiety for the staff, as well as managing the 
organization. I have often said that one of the things I never 
aspired to be in the Government was an expert managing under 
continuing resolutions. And so, if that could be fixed, I think 
it would be terrific.
    Senator Boozman. Well, again, and this is not a partisan 
issue at all. I mean, this is something that happens regardless 
of the President in power, or who is in charge of Congress, it 
is just a huge problem.
    But I think you, Dr. Elmendorf, are really in kind of a 
unique situation in that you are dealing with the individuals 
that do make the decisions on the committees having to do with 
these types of policies. So anything you can do to help us to 
bang that drum. And then also you, Mr. Dodaro, would be very, 
very helpful.
    Dr. Elmendorf. We will continue to do our best, Senator. 
Thank you.

                        FISCAL YEAR 2014 BUDGET

    Senator Shaheen. Dr. Elmendorf, I know that your 2014 
budget request was submitted based on the assumption that you 
would be operating with 233 FTEs, and that because of 
sequestration, you are now operating at the level of 228.
    Can you talk about whether or not you will be able to hire 
those additional employees if we are able to fund at that 
level?
    Dr. Elmendorf. Senator, if you were to provide the full 
amount of funding we requested, then we would aim to build back 
our staff from the current level, around 228, up to the 235 we 
have requested.
    We would not be able to average 235 over next year, as our 
request had envisioned because of the lower starting point.
    Senator Shaheen. Right.
    Dr. Elmendorf. And because we have high standards for the 
people that we hire. So we would have some savings on the 
personnel side. And you might choose to cut back our 
appropriations for those savings.
    The point I tried to make briefly at the beginning is that 
we have also deferred from this year very significant purchases 
of IT equipment and so on; significant for our scale at least. 
This year, we are doing about one-third less spending on IT and 
other items than we have in an average year. So we are falling 
behind and if you were to provide the full appropriation for 
next year, then we would like to use those personnel savings to 
try to catch up on some of the things we have deferred this 
year.
    And I would just say again, we have no desire to have the 
latest computer because it is the latest computer. But we have 
complex models, large datasets, confidentiality requirements, 
security issues outside of CBO. We are trying to facilitate 
more remote computing. We would have our staff work on the 
weekends and evenings, and all those things require us to keep 
pace with the advancement of computer technology.
    Senator Shaheen. And do you have the flexibility currently 
within your budget to be able to make those changes based on 
how many people you could hire, or do we need to provide you 
with that flexibility?
    Dr. Elmendorf. Well, we certainly would not do it without 
consulting with you. I do not know what the legal rules are, 
but we would not do something like that without discussing it 
with the subcommittee in any event. But I do not know exactly 
what you would have to write down where to make it a legal 
action. We can check for you.
    Senator Shaheen. Okay. Thanks.
    [The information follows:]

    As a Legislative Branch agency, CBO would operate within the normal 
reprogramming guidelines to use personnel savings to catch up on some 
of the IT items that were deferred this year.

                  SMALL BUSINESS SET-ASIDE REQUIREMENT

    Senator Shaheen. Mr. Dodaro, something that you were saying 
about small business made me wonder--does GAO track the 
procurement requirements, the small business set aside 
requirements, that agencies are supposed to be doing in terms 
of their contracting with small business?
    Mr. Dodaro. Yes, we have done studies of that in the past. 
You are talking about the 15 percent set aside in other areas. 
I cannot recall one that was done very recently, but I know we 
have looked at that issue over the years, and also the 
designation of the small business advocate position that was 
supposed to be put in place in each agency reporting to the 
agency head. We have looked at that issue. In some agencies, it 
was not organized properly. We have made recommendations.
    But I would be happy to put a little summary together of 
what we have done in that area, and we have done quite a bit.
    Senator Shaheen. Thank you very much. I am interested in 
that. I do not know if anybody else on the subcommittee is 
interested, but I would very much appreciate that.
    Mr. Dodaro. Will do.
    [The information follows:]

     GAO WORK ADDRESSING SMALL BUSINESS ACT CONTRACTING PROVISIONS

    GAO's more recent body of work on small business set asides falls 
into three broad categories: attainment of contracting goals, small 
business contracting oversight, and fraud identification and 
mitigation. We also have one ongoing engagement.
Attainment of Contracting Goals
    We have issued several reports related to small business goal 
attainment, including challenges that small, minority-owned businesses 
may face in pursuing Federal Government contracts, Federal efforts to 
address them, and resource constraints that reduced assurances (GAO-12-
873 and GAO-09-16). We have recommended actions to address these 
issues, including the Small Business Administration (SBA) reassessing 
resources allocated for Procurement Center Representative (PCR) and 
Commercial Market Representative (CMR) functions and developing a plan 
to better ensure that these staff can carry out their responsibilities. 
SBA agreed with the four recommendations in our November 2008 report, 
but it has only partially implemented them. In particular, SBA has not 
demonstrated to us that it has assessed resources allocated for CMR 
representative functions to ensure that these staff members can carry 
out their responsibilities of the subcontracting programs.

Key Reports:
  --Government Contracting.--Federal Efforts to Assist Small Minority 
        Owned Businesses, GAO-12-873, Sep. 28, 2012.
  --Department of Veterans Affairs.--Agency Has Exceeded Contracting 
        Goals for Veteran-Owned Small Businesses, but It Faces 
        Challenges with Its Verification Program, GAO-10-458, May 28, 
        2010.
  --Small Business Administration.--Agency Should Assess Resources 
        Devoted to Contracting and Improve Several Processes in the 
        8(a) Program, GAO-09-16, Nov. 21, 2008.

Small Business Contracting Oversight
    We have reviewed a range of issues involving small business 
contracting oversight. Most recently, we issued a report on the 
Department of Veterans Affairs (VA) management of its program that 
provides contracting preference to service-disabled and other veteran-
owned small businesses (GAO-13-95). We recommended a number of actions 
to better ensure that the strategic planning and data systems address 
the program's short- and long-term needs. VA agreed with our 
recommendations. As of April 2013, VA indicated that it was developing 
a long-term strategic plan for the program and taking steps to replace 
its data system with one that would meet its short-term and long-term 
needs.
    We have also issued a series of reports on small business support 
activities. For example, our work on the Offices of Small and 
Disadvantaged Business Utilization (OSDBU) that advocate on behalf of 
small businesses within Federal agencies identified seven agencies that 
were not complying with the Small Business Act's requirement that OSDBU 
directors be responsible only to and report directly to the agency or 
deputy agency head (GAO-11-418). The Social Security Administration 
agreed with our recommendation that these agencies take steps to comply 
with the statutory requirement, and the Department of the Interior 
agreed to reevaluate its reporting structure. The Departments of 
Commerce, Justice, State, and the Treasury disagreed, believing they 
were in compliance. We maintained our position on agencies' compliance 
status. The Department of Agriculture did not comment. We are 
continuing to review actions taken by agencies in response to our 
recommendations.
    In addition, we have also reviewed SBA's PCRs and CMRs, both of 
which help ensure that small businesses gain access to contracting and 
subcontracting opportunities (GAO-11-549R). We recommended that SBA 
take measures to improve data reliability and internal controls over 
data on PCR and CMR performance. SBA agreed with our recommendations 
and indicated that it had been updating agency guidance to clarify how 
PCRs and CMRs should report data on their performance and would develop 
a verification method to ensure the reliability of the data PCRs and 
CMRs report.
    Finally, we have also issued reports on SBA's 8(a) Business 
Development Program to assist small disadvantaged businesses and the 
Historically Underutilized Business Zone (HUBZone) program, which 
assists small businesses located in economically distressed areas (GAO-
08-643 and GAO-10-353). We identified weaknesses in internal controls 
intended to ensure that only eligible small businesses have access to 
contracting preferences contained in its 8(a) and HUBZone programs. We 
have also made numerous recommendations for improving oversight 
generally and internal controls specifically in administrating its 8(a) 
and HUBZone Programs. SBA agreed with our recommendations for the 8(a) 
program and indicated they had or were in the process of taking a 
number of actions. For example, SBA indicated that it had updated its 
8(a) Standard Operating Procedures related to continued eligibility and 
the termination process and had implemented training on the annual 
review process and graduating firms from the program when they exceed 
industry size averages. In addition, SBA stated it was taking action to 
establish a process to identify firms that exceeded the limit for 
participation in the Mentor Protege Program and was setting-up a 
centralized third-party complaint repository to help identify 
potentially ineligible firms. SBA also agreed with our recommendations 
for the HUBZone program and has since implemented those related to 
internal controls. However, SBA does not plan to implement our 
recommendation that it assess the effectiveness of the program.
    GAO's work on Alaska Native Corporation's participation in the 8(a) 
program also included several recommendations to help improve SBA's 
oversight, such as ensuring the new 8(a) database currently under 
development tracks specific information necessary to enforce 8(a) 
regulations (GAO-12-84). SBA questioned our methodology, which we 
continue to believe is appropriate, but did not address our 
recommendations. We also made recommendations to the Office of Federal 
Procurement Policy, which generally concurred with the recommendations.

Key Reports:
  --Veteran-Owned Small Businesses.--Planning and Data System for VA's 
        Verification Program Need Improvement, GAO-13-425T, Mar. 19, 
        2013.
  --Veteran-Owned Small Businesses.--Planning and Data System for VA's 
        Verification Program Need Improvement, GAO-13-95, Jan. 14, 
        2013.
  --Federal Contracting.--Slow Start to Implementation of 
        Justifications for 8(a) Sole-Source Contracts, GAO-13-118, Dec. 
        12, 2012.
  --Federal Contracting.--Monitoring and Oversight of Tribal 8(a) Firms 
        Need Attention, GAO-12-84, Jan. 31, 2012.
  --Small Business Contracting.--Opportunities to Improve the 
        Effectiveness of Agency and SBA Advocates and Mentor-Protege 
        Programs, GAO-11-844T, Sep. 15, 2011
  --Business Regulation and Consumer Protection.--Improvements Needed 
        to Help Ensure Reliability of SBA's Performance Data on 
        Procurement Center Representatives, GAO-11-549R, Jun. 15, 2011.
  --Government Operations.--Mentor-Protege Programs Have Policies That 
        Aim to Benefit Participants but Do Not Require Postagreement 
        Tracking, GAO-11-548R, Jun. 15, 2011.
  --Small Business Contracting.--Action Needed by Those Agencies Whose 
        Advocates Do Not Report to Agency Heads as Required, GAO-11-
        418, Jun. 3, 2011.
  --Small Business Administration.--Steps Have Been Taken to Improve 
        Administration of the 8(a) Program, but Key Controls for 
        Continued Eligibility Need Strengthening, GAO-10-353, Mar. 30, 
        2010.
  --Small Business Administration.--Additional Actions Are Needed to 
        Certify and Monitor HUBZone Businesses and Assess Program 
        Results, GAO-08-975T, Jul. 17, 2008.
  --Small Business Administration.--Additional Actions Are Needed to 
        Certify and Monitor HUBZone Businesses and Assess Program 
        Results, GAO-08-643, Jun. 17, 2008.

Fraud Prevention & Identification
    GAO has completed several reviews and investigations related to the 
SBA 8(a) program, the Service-Disabled Veteran-Owned Small Business 
(SDVOSB) program, and SBA's HUBZone program. Regarding the 8(a) 
program, we identified $325 million in set-aside and sole-source 
contracts given to firms not eligible (GAO-10-425). Most were obtained 
through fraudulent schemes. In the 14 cases we investigated, numerous 
instances were found where 8(a) firm presidents made false statements, 
such as underreporting income or assets, or misrepresenting ethnicity; 
to either qualify for the program or retain certification. We also 
found cases where ineligible companies used certified firms to secure 
8(a) work. In some cases, SBA did not detect the false statements and 
misrepresentations made by certified firms. In others, SBA became aware 
of the firms' ineligibility but failed to take action. We made six 
recommendations to improve SBA's ability to minimize the potential for 
fraud and abuse in the 8(a) program. SBA agreed with five 
recommendations and has taken steps to address them. Regarding the 
sixth recommendation, SBA stated that it would evaluate our 
recommendation related to how family members' assets are included in 
the assets of the 8(a) participant based upon the comments received as 
a result of the proposed 8(a) rule change.
    We also did a series of reports and testimonies on fraud prevention 
and control in the SDVOSB program. In its initial work, we found that 
the SDVOSB program was vulnerable to fraud and abuse (GAO-10-108). The 
10 case-study firms identified in the report received approximately 
$100 million from SDVOSB contracts through fraud or abuse of the 
program, or both. We asked Congress to consider providing VA with the 
authority and resources necessary to expand its SDVOSB eligibility 
verification process to all contractors seeking to bid on SDVOSB 
contracts governmentwide. Further, we made three recommendations to 
Administrator of SBA and the Secretary of the VA intended to minimize 
the potential for fraud and abuse in SDVOSB program and to assure that 
legitimate service-disabled veterans and their firms reap the benefits 
of this program. Specifically we recommended SBA and VA explore the 
feasibility of (1) expanding the use of the VA VetBiz ``verified'' 
database governmentwide for purposes of validating all SDVOSB eligible 
firms for contracting and, (2) requiring that all contractors who 
knowingly misrepresent their status as an SDVOSB be debarred for a 
reasonable period of time. In addition, we recommended that the 
Administrator of SBA refer all SDVOSB firms that submit 
misrepresentations of their status to SBA's Office of Inspector General 
for review and further investigation. VA and SBA generally agreed with 
our recommendations and are taking some steps to address them.
    In a subsequent report, we evaluated the design of the VA fraud 
prevention controls within the SDVOSB verification program instituted 
in response to the Veterans Small Business Verification Act (Public Law 
111-275). We found that VA had made progress in implementing a valid 
verification program with preventive controls to deter ineligible firms 
from attempting to become verified (GAO-12-152R). VA enhanced 
deterrents and developed controls to identify firms in its VetBiz 
database that did not meet SDVOSB eligibility requirements, resulting, 
according to VA, in over 1,800 ineligible firms being denied SDVOSB 
verification. However, even with the control enhancements, the SDVOSB 
program remained vulnerable to fraud and abuse. To address identified 
vulnerabilities, we recommended that VA take 13 actions to help 
prevent, detect, and investigate instances of possible fraud. VA 
generally concurred with all 13 recommendations. VA has implemented 6 
of the 13 recommendations and taken some action to address the 
remaining recommendations. Most recently, we reviewed VA's progress in 
addressing remaining vulnerabilities to fraud and abuse in its SDVOSB 
program and assessed actions taken by SBA or other Federal agencies to 
improve government-wide SDVOSB fraud prevention controls (GAO-12-697). 
As a result of this work, we recommended that VA take steps to ensure 
that all firms within VetBiz have undergone the Veterans Small Business 
Verification Act verification process. VA generally concurred with the 
recommendation and is taking steps to address them.
    As a result of this work, we reported that SBA's lack of controls 
over the HUBZone program exposed the government to fraud and abuse and 
that SBA's mechanisms to certify and monitor HUBZone firms provide 
limited assurance that only eligible firms participate in the program 
(GAO-09-440). Specifically, we found 29 HUBZone firms that made 
fraudulent or inaccurate representations to get into or remain in the 
HUBZone program. Using falsified documents and employee information, we 
also obtained HUBZone certification for several bogus firms using 
addresses that a simple Internet search would have identified as a 
bogus application. We made four recommendations to improve SBA's 
ability to screen, monitor, and investigate fraud and abuse within the 
HUBZone program. SBA agreed with three of these recommendations and has 
taken steps to improve its screening and monitoring of companies 
certifying that they met program requirements. Regarding the fourth 
recommendation, SBA disagreed with our recommendation to consider 
incorporating policies and procedures into program examinations for 
evaluating HUBZone employee utilization. SBA stated that contracting 
officers are required to oversee this and that it would continue to 
work with contracting officers to ensure these requirements are 
monitored.

Key Reports:
  --Service-Disabled Veteran-Owned Small Business Program.--
        Vulnerability to Fraud and Abuse Remains, GAO-12-697, Aug. 1, 
        2012.
  --Service-Disabled Veteran-Owned Small Business Program.--Additional 
        Improvements to Fraud Prevention Controls Are Needed, GAO-12-
        152R, Oct. 26, 2011.
  --8(a) Program.--The Importance of Effective Fraud Prevention 
        Controls, GAO-11-440T, Mar. 3, 2011.
  --Small Business Administration.--Undercover Tests Show HUBZone 
        Program Remains Vulnerable to Fraud and Abuse, GAO-10-759, June 
        25, 2010.
  --8(a) Program.--Fourteen Ineligible Firms Received $325 Million in 
        Sole-Source and Set-Aside Contracts, GAO-10-425, Mar. 30, 2010.
  --Service-Disabled Veteran-Owned Small Business Program.--Case 
        Studies Show Fraud and Abuse Allowed Ineligible Firms to Obtain 
        Millions of Dollars in Contracts, GAO-10-306T, Dec. 16, 2009.
  --Service-Disabled Veteran-Owned Small Business Program.--Case 
        Studies Show Fraud and Abuse Allowed Ineligible Firms to Obtain 
        Millions of Dollars in Contracts, GAO-10-108, Oct. 23, 2009.
  --GAO, HUBZone Program.--Fraud and Abuse Identified in Four 
        Metropolitan Areas, GAO-09-440, Mar. 25, 2009.
  --HUBZone Program.--SBA's Control Weaknesses Exposed the Government 
        to Fraud and Abuse, GAO-08-964T, Jul. 17, 2008.
Relevant Ongoing Work
    We also have one ongoing engagement related to small business goal 
attainment, and fraud prevention. Specifically,
  --We are examining the impact of strategic sourcing on small and 
        disadvantaged businesses. We plan to assess (1) the steps 
        agencies have taken to consider small and disadvantaged 
        businesses in their strategic sourcing initiatives and (2) 
        available information and performance measures on the inclusion 
        of small and disadvantaged businesses in strategic sourcing 
        initiatives. We expect to issue our report by the end of 
        calendar year 2013.

    Senator Shaheen. I do not have any other immediate 
questions for any of you. Do any of the other members of the 
committee?

                        SAVINGS FROM ELECTRONICS

    Senator Hoeven. The only other question I have, Madam 
Chairwoman, is for Ms. Vance-Cooks. Are you going through on a 
regular basis and looking at particularly paper reports and 
information that you are providing that people really are not 
using in a significant way or on a frequent basis that we could 
either, again, go to electronics, go to putting it on a 
Website, let people help themselves rather than having to 
deliver it all the time?
    Are you doing that and do we have a process to do that? 
Because, you know, the information world changes so much and 
how people get their information changes so much, and young 
people like Senator Shaheen and Senator Boozman, as opposed to 
old people like me, like to get it electronically or, you know, 
whereas I am used to maybe still looking at the paper, but that 
is changing. Seems to me we should have a regular process where 
you are looking at how we do that that could be an ongoing 
savings and are you doing that, is there more we could do?
    Ms. Vance-Cooks. That is a great question, and I think I 
fall in the category ``I want my paper too.''
    But yes, we are going through the Superintendent of 
Documents funding. This is the area that is responsible for the 
Federal Depository Library Program. We have individuals whose 
primary responsibility is to take a look at all of the 
information and all of the orders that are coming through, and 
identifying which of those projects, and which of those reports 
and products are of interest to the public. And then, they are 
the ones who are sending them to the libraries and/or putting 
them up online in terms of ingesting content into FDsys. That 
happens on a regular basis.
    It is a great question because of the fact that with 
sequestration, we are 22 people lower than we should be, so we 
are not able to do it as effectively and as efficiently as we 
would like.
    Senator Hoeven. Right, and see I think sequestration and 
just the budget constraints are going to force that, just so 
we've got a good avenue for you to go back to people and say, 
``Okay. We don't have the resources to do all these things. 
Yes, you might like getting it, but we are going to have to 
make some changes.'' I think that helps you adjust to the lower 
budget levels.
    Ms. Vance-Cooks. Right.
    Senator Hoeven. So if there is something again we can do to 
be helpful with that, please tell committee staff so we can go 
to other members and try to help you make some of those 
changes.
    Ms. Vance-Cooks. That would be appreciated. Thank you.
    Senator Hoeven. Thanks. I don't have any other questions.
    Senator Shaheen. So you are going to have to give up your 
paper, Senator Hoeven.
    Senator Shaheen. Senator Boozman, do you have any other?
    Senator Boozman. No. Again, I appreciate all of you. Thank 
you for being here and the information you provided was very 
helpful.
    Thank you, Madam Chair.
    Senator Shaheen. Yes, thank you all very much for your 
testimony today. Obviously, we will continue to work with you 
throughout this process.

                          SUBCOMMITTEE RECESS

    Senator Shaheen. This subcommittee is in recess until 9:30 
a.m. on Thursday, June 6, when we will meet again in this room 
to take testimony from the Secretary of the Senate, the Senate 
Sergeant at Arms, the U.S. Capitol Police, and the Architect of 
the Capitol.
    Thank you all. The meeting is concluded.
    [Whereupon, at 11:15 a.m., Tuesday, May 21, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
June 6.]

</pre></body></html>
